APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(May 30, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States
District Court for the Eastern District
of Kentucky, Northern Division at
Covington
(December 6, 2017) . . . . . . . . . . . App. 41
Appendix C Memorandum Opinion and Order in
the United States District Court for
the Eastern District of Kentucky,
Northern Division at Covington
(December 1, 2017) . . . . . . . . . . . App. 43
Appendix D Permanent Injunction in the United
States District Court for the Eastern
District of Kentucky, Northern
Division at Covington
(December 1, 2017) . . . . . . . . . . . App. 49
Appendix E Memorandum Opinion and Order in
the United States District Court for
the Eastern District of Kentucky,
Northern Division at Covington
(June 6, 2017) . . . . . . . . . . . . . . . App. 52
Appendix F Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(July 11, 2019) . . . . . . . . . . . . . . App. 88

ii
Appendix G Ky. Rev. Stat. Ann. § 6.611 . . . . App. 90
Ky. Rev. Stat. Ann. § 6.751 . . . App. 107
Ky. Rev. Stat. Ann. § 6.767 . . . App. 108
Ky. Rev. Stat. Ann. § 6.811 . . . App. 110
U.S. Const. amend. I. . . . . . . . . App. 113
U.S. Const. amend. XIV, § 1 . . . App. 113

App. 1

APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0110p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 17-6456/6505
[Filed May 30, 2019]
______________________________________
JOHN SCHICKEL, in his
Personal and Official Capacities;
DAVID WATSON,
Plaintiffs-Appellees/Cross-Appellants,
KEN MOELLMAN, JR.,
Plaintiff-Appellee,
v.
CRAIG C. DILGER, in his Official
Capacity as Chair and Member,
Kentucky Registry of Election Finance;
ROSEMARY F. CENTER; TERRY NAYDAN;
REID HAIRE; ROBERT D. MATTINGLEY;
CHASTITY ROSS; THOMAS B. STEPHENS;
JOHN R. STEFFEN,
Defendants-Appellees,

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

App. 2
GEORGE C. TROUTMAN, in his Official
Capacity as Chairman and Member
of the Kentucky Legislative Ethics
Commission; ELMER GEORGE; PAT
FREIBERT; TONY GOETZ; KEN WINTERS;
TOM JENSEN; SHELDON BAUGH; PHIL
HUDDLESTON; ANTHONY M. WILHOIT;
H. JOHN SCHAAF,
Defendants-Appellants/
Cross-Appellees.
______________________________________

)
)
)
)
)
)
)
)
)
)
)

Appeal from the United States District Court
for the Eastern District of Kentucky at Covington.
No. 2:15-cv-00155—William O. Bertelsman,
District Judge.
Argued: October 18, 2018
Decided and Filed: May 30, 2019
Before: MERRITT, COOK, and LARSEN,
Circuit Judges.
_________________
COUNSEL
ARGUED: Andrew G. Beshear, OFFICE OF THE
KENTUCKY ATTORNEY GENERAL, Frankfort,
Kentucky, for Appellants/Cross-Appellees. Christopher
D. Wiest, CHRIS WIEST, ATTORNEY AT LAW, LLC,
Cincinnati, Ohio, for Appellees/Cross-Appellants. Emily
Dennis, KENTUCKY REGISTRY OF ELECTION
FINANCE, Frankfort, Kentucky, for Appellees. ON
BRIEF: Matt James, La Tasha Buckner, OFFICE OF

App. 3
THE KENTUCKY ATTORNEY GENERAL, Frankfort,
Kentucky, for Appellants/Cross-Appellees. Thomas B.
Bruns, BRUNS, CONNELL, VOLLMAR &
ARMSTRONG, LLC, Cincinnati, Ohio, Robert A.
Winter, Jr., FORT MITCHELL, KENTUCKY, for
Appellees/Cross-Appellants. Emily Dennis,
KENTUCKY REGISTRY OF ELECTION FINANCE,
Frankfort, Kentucky, for Appellees. Barbara B.
Edelman, Haley Trogdlen McCauley, DINSMORE &
SHOHL LLP, Lexington, Kentucky, Tara Malloy,
CAMPAIGN LEGAL CENTER, Washington, D.C., for
Amici Curiae.
_________________
OPINION
_________________
COOK, Circuit Judge. One sitting state senator and
one prospective candidate for elected office in Kentucky
challenged several state campaign finance and ethics
laws, claiming violations of their First Amendment
rights to free speech and association and Fourteenth
Amendment right to equal protection. Kentucky argues
that these measures, enacted to prevent corruption and
protect its citizens’ trust in their elected officials,
comport with the Constitution. The district court, for
the most part, disagreed with the Commonwealth. We
see it differently.
I. BACKGROUND
John Schickel, the incumbent state senator for the
11th Senatorial District in Kentucky, and David
Watson, who unsuccessfully ran for the 6th House
District in 2016, brought this suit alleging that several

App. 4
of Kentucky’s campaign finance and ethics statutes
violated their rights protected by the First and
Fourteenth Amendments. They sued several members
of Kentucky’s Registry of Election Finance (KREF) and
Legislative Ethics Commission (KLEC), agencies
charged with enforcing the campaign finance and
ethics laws.
This appeal challenges the now defunct campaign
finance provision that restricted the amount a
candidate may loan to his campaign. Ky. Rev. Stat.
Ann. § 121.150(13). As for the ethics provisions, the
legislators challenge seven of them. Of the seven, three
groups of two mirroring provisions—one proscribing
certain conduct by legislators and the corollary version
for lobbyists—impose:
(1) a contribution ban, §§ 6.767(2) and
6.811(6), which prohibits a legislator, candidate
for the legislature, or his or her campaign
committee from accepting a campaign
contribution from a lobbyist, and a lobbyist from
making the same;
(2) a regular session contribution ban,
§§ 6.767(3) and 6.811(7), which prohibits a
legislator, candidate for the legislature, or his or
her campaign committee from accepting a
campaign contribution from an employer of a
lobbyist or a political committee (PAC) during a
regular session of the General Assembly, and an
employer of a lobbyist from making the same;
and

App. 5
(3) a gift ban, §§ 6.751(2) and 6.811(4), which
prohibits a legislator or his spouse from
accepting “anything of value” from a lobbyist or
his employer, and a lobbyist or employer of a
lobbyist from knowingly offering the same to a
legislator, candidate, or his family.
The final ethics provision applies only to lobbyists:
(4) a solicitation/treasurer ban, § 6.811(5),
which prohibits a lobbyist from (i) serving as a
campaign treasurer, and (ii) directly soliciting,
controlling, or delivering a campaign
contribution to a legislator or candidate.
The district court dismissed the campaign finance
claim as moot because a legislative amendment
eliminated the provision. As for the ethics provisions,
the court found that the laws burdened “core political
speech” and curtailed freedom of association, requiring
strict scrutiny of every ethics provision except the
regular session contribution ban. It ultimately upheld
the regular session contribution ban, but found all the
other challenged ethics provisions unconstitutional and
unenforceable.
Defendants then moved this court for a stay
pending appeal, which we granted. The parties crossappealed.
II. CAMPAIGN FINANCE PROVISION
We begin with the self-funding restriction, repealed
in 2017 by the Kentucky legislature, which limited the
amount a candidate could personally loan his own
campaign. See § 121.150(13) (repealed 2017). Though

App. 6
this court found the provision wholly unconstitutional
in Anderson v. Spear, 356 F.3d 651, 673 (6th Cir. 2004),
Schickel and Watson nevertheless worry that KREF
may yet enforce the statute.
To establish standing under Article III, a plaintiff
must show, among other things, an “injury in fact.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560–61 (1992).
In a pre-enforcement challenge, such as here, a
plaintiff satisfies the injury-in-fact requirement by
alleging “an intention to engage in a course of conduct
arguably affected with a constitutional interest, but
proscribed by a statute, and there exists a credible
threat of prosecution thereunder.” Susan B. Anthony
List v. Driehaus, 573 U.S. 149, 159 (2014) (quoting
Babbitt v. United Farm Workers Nat’l Union, 442 U.S.
289, 298 (1979)). “A threat of future enforcement may
be ‘credible’ when the same conduct has drawn
enforcement actions or threats of enforcement in the
past.” Kiser v. Reitz, 765 F.3d 601, 609 (6th Cir. 2014).
Here, the legislators have not shown a credible
threat of prosecution. KREF has not enforced this
provision since Anderson struck it down. Indeed, “if a
statute is unconstitutional on its face, the State may
not enforce the statute under any circumstances.”
Women’s Med. Prof’l Corp. v. Voinovich, 130 F.3d 187,
193 (6th Cir. 1997). The legislators cite several alleged
enforcements, but all involve other provisions—
§§ 121.180 and 121.150(1), (6), (12), and (20)—not this
one. Cf. Russell v. Lundergan-Grimes, 784 F.3d 1037,
1049 (6th Cir. 2015) (history of past enforcement
against others established injury in fact). Nor have the
legislators shown that KREF has any intention to

App. 7
enforce this provision. At its 30(b)(6) deposition, in its
motion for summary judgment, and during oral
argument before this panel, KREF explicitly disavowed
enforcement against the legislators for any violations
of this provision. The legislators’ case does not
resemble those it cites to support its position.
Thus, because there exists no credible threat of
prosecution, the legislators lack standing to challenge
this provision. We affirm the district court’s dismissal
of the claim on standing grounds.
III. LOBBYING RESTRICTIONS
Before addressing the merits, we consider whether
the legislators have standing to assert challenges to the
four ethics provisions governing only the conduct of
lobbyists. If the legislators cannot establish
constitutional standing, “their claims must be
dismissed for lack of subject matter jurisdiction.” Loren
v. Blue Cross & Blue Shield of Mich., 505 F.3d 598, 607
(6th Cir. 2007). Plaintiffs bear the burden of
establishing standing, and they must support each
element “in the same way as any other matter on which
the plaintiff bears the burden of proof, i.e., with the
manner and degree of evidence required at successive
stages of the litigation.” Fair Elections Ohio v. Husted,
770 F.3d 456, 459 (6th Cir. 2014) (quoting Lujan, 504
U.S. at 561). The legislators may not rely on mere
allegations, but “must set forth by affidavit or other
evidence specific facts” to show standing. McKay v.
Federspiel, 823 F.3d 862, 867 (6th Cir. 2016) (quoting
Lujan, 504 U.S. at 561).

App. 8
“[T]he nature and extent of facts that must be
averred . . . to establish standing depends considerably
upon whether the plaintiff is himself an object of the
action (or forgone action) at issue.” Lujan, 504 U.S. at
561. When he is, “there is ordinarily little question”
that the plaintiff has standing. Id. at 561–62. But when
he is not—when his “asserted injury arises from the
government’s allegedly unlawful regulation . . . of
someone else”—we require much more. Id. at 562. In
such circumstances, “causation and redressability
ordinarily hinge on the response of the regulated (or
regulable) third party to the government action or
inaction.” Id.; ASARCO Inc. v. Kadish, 490 U.S. 605,
615 (1989) (noting that plaintiff’s ability to satisfy the
essential elements of standing “depends on the
unfettered choices made by independent actors not
before the courts and whose exercise of broad and
legitimate discretion the courts cannot presume either
to control or to predict”). The burden therefore falls on
the plaintiff to present facts showing that the third
party’s “choices have been or will be made in such
manner as to produce causation and permit
redressability of injury.” Lujan, 504 U.S. at 562. This
does not preclude a showing of standing, but it
ordinarily makes it “‘substantially more difficult’ to
establish.” Id. (citation omitted); see Warth v. Seldin,
422 U.S. 490, 504 (1975).
The legislators face an uphill climb: they are not the
object of the lobbying restrictions. But the legislators
can establish standing from the operation of these
lobbying restrictions; that is, by showing that a
restriction has been applied to a lobbyist, his employer,
or a PAC—or imminently will be—and “ha[s] caused or

App. 9
will imminently cause” plaintiffs’ concrete injury. See
Tenn. Republican Party v. Sec. & Exch. Comm’n, 863
F.3d 507, 520 (6th Cir. 2017). Here, the legislators
claim the operation of these statutes infringe their
right to associate, “receive information,” and “receive[]
contributions.” An individual’s right to associate,
“broadly defined” by the Supreme Court, includes “the
ancillary right of the candidate to ‘amas[s] the
resources necessary for effective advocacy.’” Frank v.
City of Akron, 290 F.3d 813, 818 (6th Cir. 2002)
(quoting Nixon v. Shrink Mo. Gov’t PAC, 528 U.S. 377,
396–97 (2000)). Thus, the legislators could also prove
injury by showing that the challenged laws “w[ere] so
radical in effect as to render political association
ineffective, drive the sound of a candidate’s voice below
the level of notice, and render contributions pointless.”
Shrink, 528 U.S. at 397.
Affidavits from Schickel and Watson do not
establish an injury from the operation of the
contribution ban or regular session contribution ban.
Even assuming a right to receive contributions,
compare Dean v. Blumenthal, 577 F.3d 60, 69 (2d Cir.
2009) (“[A]lthough Randall did not recognize a First
Amendment right to receive campaign contributions,
its analysis did not foreclose such recognition.”), with
Interpipe Contracting, Inc. v. Becerra, 898 F.3d 879,
894 (9th Cir. 2018) (“But while the First Amendment
protects the right of an individual to express herself
through the medium of finance, it does not establish a
free-floating right to receive the funds necessary to
broadcast one’s speech.”), the legislators have not
shown these restrictions have caused or imminently
will cause them injury.

App. 10
Because they have not done so, “by affidavit or other
evidence,” they lack standing to challenge these
lobbying restrictions. See McKay, 823 F.3d at 867. The
legislators offer no affidavit from a lobbyist or his
employer regarding these restrictions, and they fail to
provide evidence that a specific lobbyist, his employer,
or a PAC attempted to help in ways proscribed by the
provisions—e.g., serve as treasurer, solicit
contributions, or make a contribution—but was turned
away due to the lobbying restrictions. The lack of such
evidence dooms their claims. See Tenn. Republican
Party, 863 F.3d at 517 (“[T]here is no reason why
Petitioners could not have put forth an affidavit from
a particular municipal advisor professional who would
have contributed more than $250 were it not for the
2016 Amendments.”); Lavin v. Husted, 689 F.3d 543,
545–47 (6th Cir. 2012) (holding that Medicaid
providers had standing to challenge a law that did not
punish them because they had “attempted to
contribute” to a state Attorney General candidate who
“refused to accept their contributions, citing Ohio law”).
Instead, Schickel and Watson offer their own
affidavits, stating their belief that others would like to
violate the restrictions. Schickel asserted that, if not
for the contribution restrictions, he “would accept
campaign donations[] from employers of lobbyists” and
“from certain registered lobbyists . . . whose values I
share.” R. 65-2, Schickel Aff. ¶¶ 26, 27. Mirroring
Schickel’s affidavit, Watson averred that “I would, if
not prohibited, accept donations from [two
organizations], and would also accept, if not prohibited,
donations on behalf of the lobbyists that lobby for
them.” R. 65-3, Watson Aff. ¶ 37. But the assurance

App. 11
that both would accept such contributions means
nothing in the absence of an affidavit or other evidence
establishing that such contributions were attempted or
would be in the imminent future. See Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 409 (2013) (quoting
Lujan, 504 U.S. at 564 n.2) (“[I]mminence is concededly
a somewhat elastic concept, [but] it cannot be stretched
beyond its purpose, which is to ensure that the alleged
injury is not too speculative for Article III
purposes—that the injury is certainly impending.”).
As for the provision that bans gifts by lobbyists, the
legislators’ statements fall short. Both attested that,
before this law’s enactment, they “would not hesitate to
take a meeting at a lobbyist’s office.” R. 65-2, Schickel
Aff. ¶ 29; R. 65-3, Watson Aff. ¶ 39. After the 2014
amendment removed the de minimis exception,
however, both fear doing so, since “sitting in an air
conditioned office” or “receiving a piece of paper to take
notes” could be considered “something of value.” R. 652, Schickel Aff. ¶ 29; R. 65-3, Watson Aff. ¶ 39. But the
legislators cannot manufacture standing by “inflicting
harm on themselves based on their fear of hypothetical
future harm that is not certainly impending.” Clapper,
568 U.S. at 416. According to Schickel, he “used to take
turns buying the soda or cup of coffee” with
constituents and lobbyists but now does so with only
constituents “given the rules in place,” R. 65-2, Schickel
Aff. ¶ 28, but this alleged injury hinges entirely “on the
unfettered choices made” by lobbyists to purchase
coffee for him, Kadish, 490 U.S. at 615. This statement
offers little more than Schickel’s own guess as to why
legislators have stopped purchasing coffee for him
(perhaps they prefer the new status quo), and thus fails

App. 12
to adduce facts sufficient to show that the choice not to
buy him coffee can be fairly traced to this provision. See
Lujan, 504 U.S. at 567 (“Standing is not ‘an ingenious
academic exercise in the conceivable.’” (quoting United
States v. Students Challenging Regulatory Agency
Procedures (SCRAP), 412 U.S. 669, 688 (1973))).
The legislators’ affidavits also fall short on the
solicitation/treasurer restriction. Each includes just the
lone statement referencing an injury: “[I] would like to
have a legislative agent serve as my campaign
treasurer, and I am aware of legislative agents that
would like to solicit others to make campaign donations
to me, but cannot under the current legislative ethics
scheme.” R. 65-2, Schickel Aff. ¶ 33; R. 65-3, Watson
Aff. ¶ 42. This is not the proof needed at summary
judgment. Miyazawa v. City of Cincinnati, 45 F.3d 126,
127 (6th Cir. 1995) (holding at summary judgment
stage that plaintiff lacked standing because she
“merely asserted a general complaint that an
unidentified candidate that she may want to vote for
may not be eligible to run for that office”).
Last, we turn to the legislators’ suggestion that
“receiving donations and giving of donations are two
sides of the same coin,” such that a party who has
standing to challenge one has standing to challenge the
other. Appellee Br. at 59. But in the one case they cite
for this proposition, the political committee and
lobbyist acquired standing to challenge the restricting
of soliciting by legislators based on showing that the
provision injured them rather than the legislators or
candidates. N.C. Right to Life, Inc. v. Bartlett, 168 F.3d
705, 710 (4th Cir. 1999).

App. 13
In the absence of specific evidence supporting
standing to challenge the lobbying restrictions, the
legislators may not.
IV. ETHICS PROVISIONS
We now examine the legislators’ challenges to the
constitutionality of the three ethics provisions that
target their own conduct: the contribution ban, regular
session contribution ban, and gift ban.
A. Standard of Review
We review de novo a district court’s judgments
under Federal Rule of Civil Procedure 56. Allied
Constr. Indus. v. City of Cincinnati, 879 F.3d 215, 219
(6th Cir. 2018). Summary judgment may be entered
only if “there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). Where, as here, the
parties filed cross-motions for summary judgment, “the
court must evaluate each party’s motion on its own
merits, taking care in each instance to draw all
reasonable inferences against the party whose motion
is under consideration.” McKay, 823 F.3d at 866
(citation omitted).
B. Level of Scrutiny Applied
The legislators argue that limiting their receiving
contributions burdens political speech. But
contribution limits entail “only a marginal restriction
upon the contributor’s ability to engage in free
communication,” as they permit “the symbolic
expression of support evidenced by a contribution but
do[] not in any way infringe the contributor’s freedom

App. 14
to discuss candidates and issues.” Buckley v. Valeo, 424
U.S. 1, 20–21 (1976) (per curiam). As such, they are
subject to closely drawn scrutiny, a “lesser but still
‘rigorous standard of review.’” McCutcheon v. FEC, 572
U.S. 185, 197 (2014) (plurality opinion) (quoting
Buckley, 424 U.S. at 29). And contribution bans—such
as those enacted here—receive the same treatment.
FEC v. Beaumont, 539 U.S. 146, 161–62 (2003)
(expressly declining to apply strict scrutiny to a
contribution ban).
The same goes for the gift ban. See Preston v. Leake,
660 F.3d 726, 729–30 (4th Cir. 2011) (upholding
lobbyist contribution ban, which defined contributions
to include gifts, under closely drawn scrutiny).
Restrictions on gift giving, like those on contributions,
are marginal restrictions that do not in any way hinder
lobbyists’ or legislators’ ability to discuss candidates or
issues. Buckley, 424 U.S. at 20–21. Indeed, if
contribution restrictions “lie closer to the edges than to
the core of political expression,” Beaumont, 539 U.S. at
161, gifts of value hug the fringe. See United States v.
Ring, 706 F.3d 460, 466 (D.C. Cir. 2013) (“[T]he First
Amendment interest in giving hockey tickets to public
officials is, at least compared to the interest in
contributing to political campaigns, de minimis.”).
C. Applying Closely Drawn Scrutiny
Closely drawn scrutiny requires the Commonwealth
to demonstrate that each provision furthers “a
sufficiently important interest and employs means
closely drawn to avoid unnecessary abridgement of
associational freedoms.” McCutcheon, 572 U.S. at 197

App. 15
(quoting Buckley, 424 U.S. at 25); see Lavin, 689 F.3d
at 547.
1. Do the challenged provisions further a
“sufficiently important” government interest?
The Commonwealth asserts a familiar interest for
the ethics provisions: the prevention of actual quid pro
quo corruption or its appearance. See § 6.606. This
interest has long been considered sufficiently
important to justify regulating campaign contributions,
and “may properly be labeled ‘compelling,’ so that [it]
would satisfy even strict scrutiny.” McCutcheon, 572
U.S. at 199 (quoting FEC v. Nat’l Conservative Political
Action Comm., 470 U.S. 480, 496–97 (1985)). It follows
that this focus on preventing corruption or its
appearance would also justify Kentucky’s gift ban. See
Fla. Ass’n of Prof’l Lobbyists, Inc. v. Div. of Legislative
Info. Servs. of the Fla. Office of Legislative Servs., 525
F.3d 1073, 1080–81 (11th Cir. 2008) (upholding lobbyist
gift ban); Preston, 660 F.3d at 729. But having an
undeniably important interest is not enough; Kentucky
must still “demonstrate how its [ethics provisions]
further[]” that interest. Lavin, 689 F.3d at 547.
To do so, Kentucky must show only “a cognizable
risk of corruption”—a “risk of quid pro quo corruption
or its appearance.” McCutcheon, 572 U.S. at 210
(emphasis added); see Citizens United v. FEC, 558 U.S.
310, 357 (2010) (noting that “restrictions on direct
contributions are preventative” and that the Buckley
Court “sustained limits on direct contributions in order
to ensure against the reality or appearance of
corruption”) (emphases added). The threat of
corruption must be more than “mere conjecture,”

App. 16
Shrink, 528 U.S. at 392, and cannot be “illusory,”
Buckley, 424 U.S. at 27. But a state need not produce
evidence of actual instances of corruption. See
McConnell v. FEC, 540 U.S. 93, 150 (2003), overruled
in part on other grounds by Citizens United, 558 U.S. at
365–66; Lair v. Motl, 873 F.3d 1170, 1178 (9th Cir.
2017); Ognibene v. Parkes, 671 F.3d 174, 183 (2d Cir.
2011) (“It is not necessary to produce evidence of actual
corruption to demonstrate the sufficiently important
interest in preventing the appearance of corruption.”).
Ultimately, “[t]he quantum of empirical evidence
needed . . . will vary up or down with the novelty and
plausibility of the justification raised.” Shrink, 528 U.S.
at 391.
The Commonwealth’s briefs describe a sordid
history. In the wake of an infamous FBI investigation
into public corruption in Kentucky that led to “the
indictment and conviction of legislators, former
legislators, and lobbyists for criminal misconduct,”
known as Operation BOPTROT, the state legislature
enacted the Ethics Code. Assoc. Indus. of Ky. v.
Commonwealth, 912 S.W.2d 947, 950 (Ky. 1995). In the
aftermath of BOPTROT, the public lost faith in its
elected officials, and public standing plunged to an alltime low. Tom Loftus & Al Cross, Lies, Bribes and
Videotape, The Courier-Journal, July 1, 1993.
Corruption was rampant and came cheap—in some
cases, legislators accepted as little as $400 from
lobbyists in exchange for influencing legislation. Id.;
Martin Booe, Ethics: Kentuckians Amazed that $400
Can Buy a Lawmaker, L.A. Times, April 13, 1993.

App. 17
Kentucky’s stated interest “[is] neither novel nor
implausible.” Shrink, 528 U.S. at 391. The contribution
ban—enacted against this backdrop and untouched by
the 2014 amendments—plainly furthers Kentucky’s
anticorruption interest. Its own supreme court agreed,
rejecting several constitutional challenges to the Code’s
provisions by an employer of lobbyists and holding that
the state demonstrated “a compelling interest in
insuring the proper operation of a democratic
government and deterring corruption, as well as the
appearance of corruption.” Assoc. Indus., 912 S.W.2d at
953; see § 6.606.
The legislators argue that Operation BOPTROT
involved only the horse racing industry, and therefore
cannot serve as the basis for restrictions on all
lobbyists. Given that lobbyists were caught up in
BOPTROT, however, we find this argument specious.
A state need not wait for the entanglement of every
industry or every lobbyist in scandal before taking
action. See Ognibene, 671 F.3d at 188; FEC v. Nat’l
Right to Work Comm., 459 U.S. 197, 210 (1982) (“Nor
will we second guess a legislative determination as to
the need for prophylactic measures where corruption is
the evil feared.”).
Kentucky also demonstrated how the regular
session contribution ban, created by the 2014
amendments, furthers this anticorruption interest. The
risk of corruption stemming from contributions by
employers of lobbyists or PACs during a regular
session of the legislature “is common sense and far
from illusory.” Ognibene, 671 F.3d at 187; Bartlett, 168
F.3d at 715–16 (upholding prohibition on in-session

App. 18
lobbyist and PAC contributions); Kimbell v. Hooper,
665 A.2d 44, 51 (Vt. 1995) (upholding in-session
contribution ban and noting that the measure
“avoid[ed] a serious appearance of impropriety”). The
regular session runs, at most, from early January to
March 30th (in odd-numbered years) or April 15th (in
even-numbered years). Ky. Const. §§ 36, 42. Stifling
direct contributions from two of the most powerful
players in the political arena during these three or so
months undoubtedly furthers Kentucky’s interest in
preventing the appearance of corruption. See N.C.
Right to Life, Inc. v. Leake, 525 F.3d 274, 291 (4th Cir.
2008) (“Direct contributions to political candidates run
the greatest risk of making candidates ‘too compliant
with the wishes of large’ donors.” (quoting Shrink, 528
U.S. at 389)).
In the years since the Code’s enactment, history
confirms that contributions from lobbyists, their
employers, and PACs, as well as gifts from lobbyists,
suggest quid pro quo corruption or its appearance. Ky.
Right to Life, Inc. v. Terry, 108 F.3d 637, 639 (6th Cir.
1997) (“Numerous Kentucky public officials have been
convicted of abusing their political offices for personal
gain over the past twenty-five years.”); Preston, 660
F.3d at 737 (“We also conclude that in aiming the ban
at only lobbyists, who, experience has taught, are
especially susceptible to political corruption, North
Carolina closely drew its enactment to serve the state
interests it identified.”); Bartlett, 168 F.3d at 716 (“The
appearance of corruption resulting from PAC and
lobbyist contributions during the legislative session can
also be corrosive.”).

App. 19
Further, if lobbyists’ employers and PACs were “free
to contribute to legislators while pet projects sit before
them, the temptation to exchange ‘dollars for political
favors’ [would] be powerful.” Bartlett, 168 F.3d at 716
(citation omitted). Even though PACs and lobbyists’
employers may “have no intention of directly
‘purchasing’ favorable treatment, appearances may be
otherwise.” Id. Where “the conflict of interest is
apparent [and] the likelihood of stealth great,” Blount
v. SEC, 61 F.3d 938, 945 (D.C. Cir. 1995), we will not
require Kentucky to “experience the very problem it
fears before taking appropriate prophylactic measures,”
Ognibene, 671 F.3d at 188.
As for the removal of the de minimis exception from
the gift ban, we note that the Commonwealth enacted
this exception at the same time as the contribution
limit—in the immediate aftermath of the BOPTROT
scandal. Removing the exception simply changed the
limit on gifts from $100 to $0. Kentucky’s choice to
reduce the limit to $0, we think, “goes to whether the
limit is sufficiently tailored, not whether [Kentucky]
had a sufficiently important interest to justify setting
any [gift] limit at all.” Zimmerman v. City of Austin,
881 F.3d 378, 386 (5th Cir. 2018). But even if we
required a showing that its decision to remove this
exception furthers its anticorruption interest, Kentucky
has done so.
As KLEC’s representative explained, removing the
de minimis exception—and the administrative
blunders that accompanied it—helps prevent the
appearance of corruption. To be sure, KLEC’s
representative admitted that the de minimis exception

App. 20
“had not developed into an ethics problem,” but that it
was an “administrative” and “public perception”
problem. R. 47-1, PageID 881–82. Administering the
exception led to “incorrect reports that include[d]
legislators who didn’t even attend events or didn’t eat
or drink at the events but they’re getting their name
publicized.” Id. at PageID 883. Faced with this issue,
the legislature decided to entirely close this “loophole
in the law” by “paint[ing] a brighter line for the
General Assembly and the public to know that
legislators are not taking anything of value.” Id. at
PageID 826–27.
Kentucky is not an outlier. Both before the district
court and on appeal, Kentucky cited the laws and
experiences of other states to justify the removal of the
de minimis exception. See Wagner v. FEC, 793 F.3d 1,
14 (D.C. Cir. 2015) (en banc) (noting the relevance of
the “experience of states with and without similar
laws” to this inquiry). The Commonwealth took this
action after KLEC recommended it, grounding the
recommendation on its research of governmental ethics
issues, a task assigned to it by statute. See § 6.666(15).
Its research yielded plentiful and detailed newspaper
accounts from across the country “supporting
inferences of impropriety” arising from gifts of value,
Shrink, 528 U.S. at 393, including several that
discussed how lobbyists and their employers skirted de
minimis exceptions with tickets to sporting events,
rounds of golf, and cigars. R. 64-5, PageID 3361. In
addition to its recommendation, KLEC compiled these
news articles into Ethics Reporters, which it

App. 21
disseminated monthly to all legislators, lobbyists, and
employers of lobbyists. R. 64-5, PageID 3354–67. 1
And just as in Wagner, further evidence comes from
other states enacting their own gift bans that do not
have de minimis exceptions. See, e.g., Fla. Stat. Ann.
§ 112.313(2); Haw. Rev. Stat. Ann. § 84-11; Minn. Stat.
Ann. § 10A.071(2); S.C. Code Ann. § 2-17-80(A); Vt.
Stat. Ann. tit. 2, §§ 261(6)(a), 266(a)(2); Wisc. Stat.
Ann. §§ 19.42, 19.45, 19.56(3). “The fact that many
states have such laws shows that [Kentucky] is no
outlier,” Wagner, 793 F.3d at 16, and that other states
believe gifts of value create a threat of corruption or its
appearance.
*

*

*

Tellingly, perhaps, of the 138 members of the
Kentucky General Assembly, only one member—the
member who initiated this lawsuit—voted against the
2014 amendments that enacted the regular session ban
and removed the de minimis exception. Kentucky
Legislature, 2014 Regular Session Voting Record – HB
28, https://apps.legislature.ky.gov/record/14rs/
hb28.html. Just as the overwhelming seventy-four1

The legislators cross-appeal the district court’s denial of their
motion to strike these newsletters, arguing that the clips of several
newspaper articles within them constitutes “inadmissible hearsay
and was unauthenticated.” But because the newsletters were
authenticated, see R. 82, PageID 4163–64, and plainly not offered
for the truth of the matter asserted, they are not hearsay. See
Biegas v. Quickway Carriers, Inc., 573 F.3d 365, 379 (6th Cir.
2009). Rather, they were offered as evidence of what was before the
legislature at the time, and for their effect on KLEC’s
recommendation to the legislature.

App. 22
percent statewide vote in favor of the contribution
limits in Shrink helped demonstrate the state’s
interest, 528 U.S. at 394, so too this landslide vote. Had
the legislators made a showing of their own to cast
doubt on the evidence presented here, Kentucky might
have needed to show more. Id. But on this record,
Kentucky adequately illustrated that these ethics
provisions further the sufficiently important interest of
preventing quid pro quo corruption or its appearance.
2. Are the challenged provisions closely drawn?
To clear the second hurdle of the closely drawn test,
a state must show it employed “means closely drawn to
avoid unnecessary abridgment of associational
freedoms.” McCutcheon, 572 U.S. at 197 (quoting
Buckley, 424 U.S. at 25). This requires “a fit that is not
necessarily perfect, but reasonable; that represents not
necessarily the single best disposition but one whose
scope is ‘in proportion to the interest served,’ . . . that
employs not necessarily the least restrictive means but
. . . a means narrowly tailored to achieve the desired
objective.” Id. at 218 (quoting Bd. of Trs. of State Univ.
of N.Y. v. Fox, 492 U.S. 469, 480 (1989)). In conducting
such review, of course, we owe “proper deference to a
[legislative] determination of the need for a
prophylactic rule [to address] the evil of potential
corruption.” Nat’l Conservative Political Action Comm.,
470 U.S. at 500; Nat’l Right to Work Comm., 459 U.S.
at 210.
Contribution Ban. This provision prohibits a
legislator from accepting a campaign contribution from
a lobbyist. § 6.767(2). Not long ago, the Fourth Circuit
applied closely drawn scrutiny and upheld a complete

App. 23
ban on campaign contributions by lobbyists. Preston,
660 F.3d at 729, 735–36. There, plaintiff argued that
the provision was not closely drawn because the state
“could have allowed for . . . small donations . . . without
undermining its interest in preventing actual and
perceived corruption.” Id. at 736. The court rejected
this argument, reasoning that, in response to recent
scandals, the legislature made the “rational judgment
that a complete ban was necessary as a prophylactic to
prevent not only actual corruption but also [its]
appearance.” Id. The court also emphasized that the
ban aimed only at lobbyists “who, experience has
taught, are especially susceptible to political
corruption.” Id. at 737. “This is both an important and
a legitimate legislative judgment that ‘[c]ourts simply
are not in the position to second-guess,’ especially
‘where corruption is the evil feared.’” Id. at 736
(citation omitted).
The Fourth Circuit’s reasoning persuades us.
Lobbyists’ role undoubtedly sharpens the risk of
corruption and its appearance. See Wagner, 793 F.3d at
22; see Eric Lipton & Ben Protess, Banks’ Lobbyists
Help in Drafting Financial Bills, N.Y. Times, May 23,
2013. To be sure, “[t]he role of a lobbyist is both
legitimate and important to legislation and government
decisionmaking, but by its very nature, it is prone to
corruption and therefore especially susceptible to
public suspicion of corruption.” Preston, 660 F.3d at
737. Indeed, contributions and gifts from lobbyists and
others who have a “particularly direct financial interest
in these officials’ policy decisions pose a heightened
risk of actual and apparent corruption, and merit
heightened government regulation.” Ognibene, 671

App. 24
F.3d at 188; see Preston, 660 F.3d at 737 (“Any payment
made by a lobbyist to a public official, whether a
campaign contribution or simply a gift, calls into
question the propriety of the relationship, and
therefore North Carolina could rationally adjudge that
it should ban all payments.”).
We find no merit to the legislators’ argument that
only recent scandals justify a contribution ban. Courts
do not require a recent scandal; indeed, the Supreme
Court views contribution limits as preventative
measures. Citizens United, 558 U.S. at 356 (noting the
preventative nature of direct contribution restrictions
because “the scope of such pernicious practices can
never be reliably ascertained”). We do not require
Kentucky “to experience the very problem it fears
before taking appropriate prophylactic measures.”
Ognibene, 671 F.3d at 188.
Yes, a total ban presents a significant restriction.
But under the closely drawn standard, “[e]ven a
‘significant interference with protected rights’ of
political association may be sustained.” McCutcheon,
572 U.S. at 197 (citation and internal quotation marks
omitted). While this ban dispenses with one means a
legislator has to gather funds, it leaves open others less
susceptible to the same risk of corruption or its
appearance, and thus survives closely drawn scrutiny.
See Preston, 660 F.3d at 734 (finding that the ban
“serv[ed] only as a channeling device, cutting off the
avenue of association and expression that is most likely
to lead to corruption but allowing numerous other
avenues of association and expression”).

App. 25
Regular Session Contribution Ban. This provision
broadens the reach of the contribution ban; it prohibits
a legislator from accepting campaign contributions
from employers of lobbyists and PACs, though only
during a regular legislative session. § 6.767(3). The
district court upheld the ban, relying primarily on two
cases. See Bartlett, 168 F.3d at 715–16 (finding a nearly
identical ban closely drawn because it applied to only
two of the “most ubiquitous and powerful players in the
political arena,” and did “nothing more than place a
temporary hold” on the ability to contribute during the
time when the risk of corruption is highest); Kimbell,
665 A.2d at 51 (finding a ban on contributions by
lobbyists during active legislative sessions closely
drawn because it focused on “a narrow period during
which legislators could be, or could appear to be,
pressured, coerced, or tempted into voting on the basis
of cash contributions”). We agree.
First, this time-specific ban restricts less than
would an absolute ban, Lavin, 689 F.3d at 548, and
targets the time when the risk of quid pro quo
corruption—especially its appearance—is highest,
Bartlett, 168 F.3d at 716. Indeed, contributions to a
legislator (or his challenger) when a legislator is poised
to cast a favorable (or unfavorable) vote on a pet bill
could cause Kentuckians to question whether the
contribution motivated the vote. See id. (“[T]he
temptation to exchange ‘dollars for political favors’ can
be powerful.”). For that reason, we assess this limited
ban as permissible. As the Supreme Court emphasized,
“the danger of corruption and the appearance of
corruption apply with equal force to challengers and to
incumbents,” justifying “imposing the same fundraising

App. 26
constraints upon both.” Buckley, 424 U.S. at 33
(emphasis added).
In addition to the time limitation, the
Commonwealth limited the coverage of this ban to two
of the “most ubiquitous and powerful players in the
political arena.” Bartlett, 168 F.3d at 716. Though these
players can significantly inform the legislative process,
“there remain powerful hydraulic pressures at play
[that] can cause both legislators and lobbyists to cross
the line.” Id. The legislators take issue with the scope
of this ban, arguing that it covers “[e]ach and every
PAC,” not just those that employ lobbyists, as was the
case in Bartlett. 168 F.3d at 714. But Kentucky
similarly limited the definition of what constitutes a
PAC. As we noted over twenty years ago, the Kentucky
General Assembly “explicitly narrow[ed] the definition
of ‘permanent committee’ to encompass only those
organizations which expressly advocate the election or
defeat of clearly identified candidate(s).” Terry, 108
F.3d at 643; see Ky. Rev. Stat. Ann. § 121.015(3)(d).
The level of scandal uncovered by Operation
BOPTROT, as well as the experiences of other states,
provides more than “scant evidence” that lobbyists
sometimes turn to employers and PACs to achieve their
ends. McConnell, 540 U.S. at 232, overruled on other
grounds by Citizens United, 558 U.S. 310. Indeed, if we
upheld the absolute ban on lobbyist contributions but
struck down this restriction, we would be inviting the
very circumvention proscribed by this provision. See
Leake, 525 F.3d at 292. Because this provision “does
nothing more than recognize that lobbyists”—and their
employers and narrowly-defined PACs—“are paid to

App. 27
persuade legislators, not to purchase them,” Bartlett,
168 F.3d at 718, and that contributions made by these
power players during an active session are particularly
likely to give rise to the appearance of corruption, we
find this time-limited ban closely drawn.
Gift Ban. The gift ban provision prohibits a
legislator or his spouse from soliciting, accepting, or
agreeing to accept “anything of value” from a lobbyist
or his employer. § 6.751(2). We again see no
constitutional problem here. The gift ban does not
prevent lobbyists and legislators from meeting to
discuss pressing issues facing Kentuckians. To be sure,
it does not forbid any interaction or the utterance of
any word between the two. They may associate as often
as they wish over a cup of coffee or dinner or baseball
game. This law simply requires that, if they do,
legislators pay their own way. A fair, reasonable way of
preventing quid pro quo corruption and its appearance.
Appellant Br. at 31 (noting that legislators receive a
$154 per diem from taxpayer funds during the session
for precisely this purpose).
In addition, we reject the legislators’ argument that
permitting events where all legislators are invited and
not requiring reporting of who attended such events
makes these provisions underinclusive. See
§ 6.611(2)(b)(8); Williams-Yulee v. Florida Bar, 135 S.
Ct. 1656, 1670 (2015) (“Underinclusivity creates a First
Amendment concern when the State regulates one
aspect of a problem while declining to regulate a
different aspect of the problem that affects its stated
interest in a comparable way.”). This exception permits
associations and facilitates speech between lobbyists

App. 28
and legislators without undercutting Kentucky’s stated
interest or abridging associational freedoms. Through
this carve out, Kentucky encourages interactions that
are less likely to raise concerns about actual or
apparent corruption. R. 47-1, PageID 785 (“[I] think
they focused on events to which bipartisan, bicameral
groups of legislators were invited . . . , [which are]
much less problematic than a one-on-one dinner . . .
where a lobbyist pays all the tab and gets that kind of
one-on-one time.”). Thus, this provision survives closely
drawn review.
Having found these provisions closely drawn, we
turn to examine the legislators’ other arguments for
striking down the gift ban—that it is content based, a
violation of their right to equal protection, vague, and
overbroad. As to each, we disagree.
D. Content-Based Restriction on Speech
The legislators argue that the gift ban provision is
a content-based restriction because it “targets gifts
based on the identity of the giver.” Appellee Br. at 32.
But speaker-based bans are not automatically content
based or content neutral. Rather, because “[s]peech
restrictions based on the identity of the speaker are all
too often simply a means to control content,” Citizens
United, 558 U.S. at 340, such laws “demand strict
scrutiny when the legislature’s speaker preference
reflects a content preference,” Reed v. Town of Gilbert,
135 S. Ct. 2218, 2230 (2015) (quoting Turner Broad.
Sys., Inc. v. FCC, 512 U.S. 622, 658 (1994)); see Nat’l
Inst. of Family & Life Advocates v. Becerra, 138 S. Ct.
2361, 2378 (2018). To make this determination, we

App. 29
follow the framework set out by the Supreme Court in
Reed. 135 S. Ct. at 2230. 2
A law reflects a content preference when it cannot
be “justified without reference to the content of the
regulated speech” or was “adopted by the government
‘because of disagreement with the message [the speech]
conveys.’” Id. at 2227 (quoting Ward v. Rock Against
Racism, 491 U.S. 781, 791 (1989)). In making this
determination, “[t]he government’s purpose is the
controlling consideration.” Ward, 491 U.S. at 791. “[A]
regulation that serves purposes unrelated to the
content of expression is deemed neutral, even if it has
an incidental effect on some speakers or messages but
not others.” See McCullen v. Coakley, 573 U.S. 464, 480
(2014) (quoting Ward, 491 U.S. at 791). The gift ban
provision passes this test.
Again, Kentucky’s purpose was clear: To protect the
integrity of the legislative process and avoid the reality
or appearance that state legislation was being bought
and sold. § 6.606. Such a purpose reflects a preference
for a state legislature that maintains the trust of its
citizens, not for the expression of certain content. See
McCullen, 573 U.S. at 480. Nor have the legislators
offered any evidence that the provision was adopted by
Kentucky “because of disagreement with the message
[the speech] conveys.” Reed, 135 S. Ct. at 2227. It
applies to gifts that are “pecuniary or compensatory in

2

Normally, the “first step in the content-neutrality analysis”
requires us to determine “whether the law is content neutral on its
face.” Reed, 135 S. Ct. at 2228. Nowhere, however, do the
legislators argue that this provision is facially content based.

App. 30
value,” regardless of whether they convey any message
at all.
In Reed, the Court discussed speaker-based bans
and explained that a law limiting the content of
newspapers—and only newspapers—could not avoid
strict scrutiny “simply because it could be characterized
as speaker based.” 135 S. Ct. at 2230. So too, a
“content-based law that restricted the political speech
of all corporations would not become content neutral
just because it singled out corporations as a class of
speakers.” Id. (citing Citizens United, 558 U.S. at
340–41). Reed, at bottom, teaches us to be wary of
speaker-based restrictions that are nothing more than
content-based restrictions in disguise. And wary we
are. Kentucky’s gift ban provision, however, serves an
anticorruption purpose unrelated to the content of
expression and is justified without any reference to the
content of the gifts regulated. See Ward, 491 U.S. at
791.
Since the gift ban provision is content neutral, it is
“subject to an intermediate level of scrutiny.” Turner,
512 U.S. at 642. Thus, just as the other First
Amendment challenges here, we apply closely drawn
scrutiny. See Zimmerman, 881 F.3d at 384–85
(rejecting argument that base contribution limit was
content based and applying closely drawn scrutiny).
Again, the Commonwealth has demonstrated that the
gift ban advances its anticorruption interest and
employs means closely drawn to do so, and therefore
survives closely drawn review.

App. 31
E. Equal Protection
The district court found that the gift ban violated
lobbyists’ right to equal protection because “[e]ven
though lobbyists and their employers are not part of a
suspect class, a law that treats them differently from
other citizens is subject to the highest level of scrutiny
when it seeks to suppress their political expression.” R.
122, PageID 4642. It got there by relying on the
Supreme Court’s decision in Austin v. Mich. Chamber
of Commerce, 494 U.S. 652 (1990), where the Court
held that “[b]ecause the right to engage in political
expression is fundamental to our constitutional system,
statutory classifications impinging upon that right
must be narrowly tailored to serve a compelling
governmental interest.” Id. at 666, overruled on other
grounds by Citizens United, 558 U.S. 310.
In Citizens United, the Court overruled Austin on
the question of whether the government may, under
the First Amendment, suppress political speech “based
on the corporate identity of the speaker.” 558 U.S. at
364. But the Court did not express an intent to
overturn Austin’s holding regarding the level of
scrutiny applied to political expression, so it remains
good law. See Minn. Citizens Concerned for Life, Inc. v.
Swanson, 692 F.3d 864, 879–80 (8th Cir. 2012) (en
banc) (explaining that Citizens United did not explicitly
overrule the equal protection analysis in Austin);
Riddle v. Hickenlooper, 742 F.3d 922, 928 n.4 (10th Cir.
2014) (same). That said, several of our sister circuits
express doubt as to whether Austin demands strict
scrutiny in cases involving equal protection challenges
to contribution limits.

App. 32
The D.C. Circuit, sitting en banc, found Austin
distinguishable and declined to follow it. Wagner, 793
F.3d at 32. It held that closely drawn scrutiny applied
to an equal protection challenge to a contractor
contribution ban, rejecting the “doctrinal gambit” that
“would require strict scrutiny notwithstanding the
Supreme Court’s determination that the ‘closely drawn’
standard is the appropriate one under the First
Amendment.” Id. It noted that, although the Supreme
Court “has on occasion applied strict scrutiny in
examining equal protection challenges in cases
involving First Amendment rights, it has done so only
when a First Amendment analysis would itself have
required such scrutiny.” Id. Such was the case in
Austin, where the Court applied strict scrutiny to
determine whether restrictions on independent
expenditures by corporations passed muster under the
equal protection clause. Austin, 494 U.S. at 655–56. To
be sure, the plaintiffs in Wagner could find “no case in
any court ‘in which an equal-protection challenge to
contribution limits succeeded where a First
Amendment one did not.’” Wagner, 793 F.3d at 32–33
(citation omitted).
In Riddle, although the Tenth Circuit applied the
closely drawn test to an equal protection challenge to
contribution limits that treated candidates differently
if they were unopposed for their nominations only “[f]or
the sake of argument,” the court recognized that, in the
First Amendment context, the Supreme Court has
applied closely drawn scrutiny to contribution limits.
Riddle, 742 F.3d at 927–28. In his concurrence, thenJudge Gorsuch noted that “the Court has yet to apply
strict scrutiny to contribution limit challenges—

App. 33
employing [closely drawn scrutiny] instead,” and
questioned whether “an interest [can] become more
potent (‘more’ fundamental) when viewed through the
lens of equal protection analysis?” Id. at 931 (Gorsuch,
J., concurring).
The Second Circuit too summarily rejected an equal
protection challenge to a contribution limit where it
already had held that the limit did not constitute
viewpoint discrimination under the First Amendment.
Ognibene, 671 F.3d at 193 n.19. And in rejecting the
same sort of challenge, one district court stated that it
was not surprising such arguments had failed because
the Supreme Court’s precedent “hold[s] that it makes
no difference whether a challenge to the disparate
treatment of speakers or speech is framed under the
First Amendment or the Equal Protection Clause.”
Illinois Liberty PAC v. Madigan, 902 F. Supp. 2d 1113,
1126 (N.D. Ill. 2012) (collecting Supreme Court cases);
see City of Renton v. Playtime Theatres, Inc., 475 U.S.
41, 55 n.4 (1986) (“As should be apparent from our
preceding discussion, respondents can fare no better
under the Equal Protection Clause than under the
First Amendment itself.”).
As for this circuit, we’ve not yet considered the level
of scrutiny to apply. From our review of other circuits’
precedent, however, we agree that the best reading of
Austin, especially considering the scope of its
application, confines its holding to cases in which the
First Amendment analysis itself requires strict
scrutiny. See Wagner, 793 F.3d at 32. We have found no
case where the Supreme Court applied strict scrutiny
in examining an equal protection challenge when the

App. 34
First Amendment analysis itself did not require such
scrutiny, see id., and just as our sister circuits, we
decline to be the first. Thus, we hold that closely drawn
scrutiny, the tier of scrutiny applied to the First
Amendment challenge, also applies to the equal
protection challenge. The gift ban withstands such
scrutiny.
F. Vagueness
To succeed on a vagueness challenge, a plaintiff
must show either that the law (1) “fails to provide
people of ordinary intelligence a reasonable opportunity
to understand what conduct it prohibits”; or
(2) “authorizes or even encourages arbitrary and
discriminatory enforcement.” Johnson v. United States,
135 S. Ct. 2551, 2566 (2015). For laws that interfere
with the right of free speech or association, “a more
stringent vagueness test should apply.” Platt v. Bd. of
Comm’rs on Grievances & Discipline of Ohio Supreme
Court, 894 F.3d 235, 246 (6th Cir. 2018). But we do not
require “perfect clarity and precise guidance.” Holder
v. Humanitarian Law Project, 561 U.S. 1, 19 (2010). On
appeal, plaintiffs challenge only “the vague so called
‘catchall’ provision”—§ 6.611(2)(a)(14), not the entire
definition of “anything of value” in § 6.611(2)(a).
Fair Notice. When determining whether a law
provides fair notice, “in the absence of state court
guidance, we examine ‘the words of the ordinance
itself.’” Platt, 894 F.3d at 246 (quoting Grayned v. City
of Rockford, 408 U.S. 104, 110 (1972)). The catch-all
provision reads: “[a]ny other thing of value that is
pecuniary or compensatory in value to a person, or the
primary significance of which is economic gain.”

App. 35
§ 6.811(2)(a)(14). A common dictionary defines “value”
as “the monetary worth of something,” Webster’s Third
New International Dictionary Unabridged 2530 (2002),
and “pecuniary” nearly the same, id. at 1663. And
“compensatory” is defined as “serving as
compensation,” with “compensation” defined as “the act
or action of making up, making good, or
counterbalancing,” or “payment for value received or
service rendered.” Id. at 463.
No vagueness plagues any of these terms. Laws
marked by “flexibility and reasonable breadth, rather
than meticulous specificity,” are not inevitably vague,
see Platt, 894 F.3d at 246–47, and we do not
require—or expect—“mathematical certainty from our
language.” Grayned, 408 U.S. at 110. A person of
ordinary intelligence would know that this
language—used in both legal and common
parlance—bars them from accepting or soliciting
money or a gift that serves as payment for a service
provided. See Platt, 894 F.3d at 247. And the additional
phrase “or the primary significance of which is
economic gain” does not muddy the waters.
Here, though the catch-all provision is marked by
flexibility and reasonable breadth, we think “it is clear
what the ordinance as a whole prohibits.” Deja Vu of
Cincinnati, L.L.C. v. Union Twp. Bd. of Trustees, 411
F.3d 777, 798 (6th Cir. 2005). Even if these “words
leave some wiggle room,” Platt, 894 F.3d at 247, the
Ethics Code provides multiple mechanisms to
determine whether the gift is permissible. See
§ 6.827(1) (requiring lobbyists and their employers to
deliver a copy of reported expenditures to the legislator

App. 36
at least ten days before filing a report with KLEC); see
§ 6.827(2) (providing procedure for resolving any
discrepancies in report). Most importantly, § 6.681
allows a legislator or lobbyist to seek an advisory
opinion to clarify any ambiguities, admittedly not done
here. See Platt, 894 F.3d at 247.
Nor do KLEC’s representative’s answers to
hypotheticals posed in interrogatories demonstrate
vagueness here. Id. at 249–50. “Hypotheticals are a
favorite tool of those bringing vagueness challenges,” as
almost all statutes are “susceptible to clever
hypotheticals testing its reach.” Id. at 251. The district
court and the legislators seized on one exchange where
KLEC’s representative suggested that “a bottle of
water” offered during a meeting to discuss a pending
bill could be a “possible” thing of value that would
violate the ban, and that the legislator could “call [him]
and ask [him] if he should accept under the
circumstances.” R. 47-1, PageID 668–71.
Just as in Platt, “[s]pecific facts matter,” and it
would have been irresponsible of the representative to
respond definitively. See 894 F.3d at 248. Though a
bottle of water does not immediately come to mind
when one reads the catch-all provision (and the rest of
§ 6.611(2)(a)-(b)), it could possibly fall under the
provision based on the surrounding circumstances.
Responding, then, as here, that the situation would be
evaluated on a case-by-case basis by looking at the
surrounding circumstances shows prudence, not
vagueness. See id. at 251.
The legislators offered another example to show
vagueness. An employer of a lobbyist invited Senator

App. 37
Schickel to tour a factory, but he “declined due to a
legitimate fear that being lent a hard hat to tour the
facility, being subjected to heat for the building, or
stopping to use the restroom facilities in the factory
during the tour could run afoul” of this rule. Appellee
Br. at 44. But this is a specious argument considering
the detailed lists including, § 6.611(2)(a), and
excluding, § 6.611(2)(b), items from “anything of value.”
The catch-all provision’s plain language and the means
to resolve questions about its coverage, including
advisory opinions, provide fair notice of the conduct it
prohibits.
Arbitrary Enforcement. To determine whether a
statute creates opportunities for arbitrary enforcement,
we ask whether the catch-all provision “provide[s]
explicit standards guiding [its] enforcement.” United
Food & Commercial Workers Union, Local 1099 v. Sw.
Ohio Reg’l Transit Auth., 163 F.3d 341, 359 (6th Cir.
1998). Just as in challenges to similarly-worded gift
bans on lobbyists and others, we hold that explicit
standards guide the enforcement of this provision. See
Fla. Ass’n, 525 F.3d at 1075 n.1 (upholding lobbyist gift
ban that defined “expenditure” as “a payment,
distribution, loan, advance, reimbursement, deposit, or
anything of value made by a lobbyist or principal for
the purpose of lobbying”); Kimbell, 665 A.2d at 82 n.1
(“anything else of value”); see also Yamada v. Snipes,
786 F.3d 1182, 1188–89 (9th Cir. 2015) (rejecting
vagueness challenge to “expenditure” definition that
included “anything of value”); Vt. Right to Life Comm.,
Inc. v. Sorrell, 758 F.3d 118, 130 (2d Cir. 2014) (same).
In fact, the statutes in Florida Association and Kimbell
provided far fewer examples of what the term

App. 38
“expenditure” did and did not include—nothing close to
the twenty-five-plus subparts here. See Fla. Stat. Ann.
§§ 11.045(1)(c), 112.3215(1)(d); Vt. Stat. Ann. tit. 2,
§ 261(5).
We find the catch-all provision not void for
vagueness.
G. Overbreadth and Chilling Effect
“A law is overbroad under the First Amendment if
it ‘reaches a substantial number of impermissible
applications’ relative to the law’s legitimate sweep.”
East Brooks Books, Inc. v. Shelby Cty., 588 F.3d 360,
366 (6th Cir. 2009) (citation omitted). A plaintiff
making an overbroad challenge may not “leverag[e] a
few alleged unconstitutional applications of the statute
into a ruling invalidating the law in all of its
applications.” Speet v. Schuette, 726 F.3d 867, 878 (6th
Cir. 2013) (quoting Connection Distrib. Co. v. Holder,
557 F.3d 321, 340 (6th Cir. 2009) (en banc)). Rather, a
plaintiff “must demonstrate from the text of the statute
and from actual fact that a substantial number of
instances exist in which the law cannot be applied
constitutionally.” Id.
Much of our analysis here overlaps with our
vagueness analysis. In finding the law overbroad, the
district court once again relied on the same
hypotheticals discussed previously. But, again, this
provision does not sweep so broadly. As before,
plaintiffs provide no evidence of any person who has
ever been charged with violating this provision for
(i) receiving a bottle of water; (ii) walking into a heated
or cooled room; or even (iii) using the restroom in a

App. 39
lobbyist’s office. Indeed, KLEC has never interpreted
these “gifts” as “[some]thing of value” to be “reported,
limited, or prohibited.” In the unlikely event that
KLEC ever charges anyone for (or threatens
enforcement of) such conduct, an as-applied challenge
would be appropriate.
We agree with the Commonwealth’s argument that
“[t]he gift ban . . . prevent[s] lobbyists from paying for
one-on-one or small group interactions with legislators,
to avoid the reality or appearance that important state
legislation is being bought and sold in private.”
Appellant Br. at 31–32. Even in First Amendment
cases, facial invalidation is “strong medicine that is not
to be casually employed.” Connection Distrib., 557 F.3d
at 336 (quoting United States v. Williams, 553 U.S.
285, 293 (2008)). Given the plainly legitimate sweep of
these provisions to sports tickets, cars, wine, vacations,
and art, the gift ban is not overbroad.
V. CONCLUSION
Kentucky’s legislature acted to protect itself and its
citizens from the damaging effects of corruption.
Because these laws are closely drawn to further
Kentucky’s anticorruption interest, they pass
constitutional muster. Accordingly, we AFFIRM the
court’s judgment upholding the constitutionality of
§ 6.767(3), and the dismissal of § 121.150(13) on
standing grounds. We VACATE the district court’s
judgment as to § 6.811(4), § 6.811(5), § 6.811(6), and
§ 6.811(7), and REMAND with instructions to dismiss
those claims for lack of subject-matter jurisdiction. We
REVERSE the court’s judgment as to § 6.751(2) and
§ 6.767(2), VACATE the permanent injunction in its

App. 40
entirety, and REMAND for further proceedings
consistent with this opinion.

App. 41

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF KENTUCKY
NORTHERN DIVISION AT COVINGTON
CIVIL ACTION NO. 2:15-cv-155 (WOB-JGW)
[Filed December 6, 2017]
______________________________________
JOHN SCHICKEL, DAVID WATSON,
)
and KEN MOELLMAN, JR.
)
PLAINTIFFS
)
)
VS.
)
)
CRAIG C. DILGER, TERRY
)
NAYDAN, REID HAIRE, ROBERT
)
MATTINGLY, CHASTITY ROSS,
)
THOMAS STEVENS, JOHN STEFEN, )
GEORGE C. TROUTMAN, ELMER
)
GEORGE, DEBORAH JO DURR,
)
NORMA SCOTT, CHARLES R.
)
BORDERS, BOB FULKERSON,
)
PAT FREIBART, HENRY STEPHENS, )
PAUL D. GUDGEL, ANTHONY
)
WILHOIT, KEN WINTERS, AND H.
)
JOHN SCHAFF, all in their Official
)
capacities
)
DEFENDANTS
)
______________________________________ )

App. 42
JUDGMENT
Pursuant to the Court’s Memorandum Opinion and
Order dated June 6, 2017 (Doc. 122) and its
Memorandum Opinion and Order and Permanent
Injunction dated December 1, 2017 (Docs. 138, 139),
IT IS HEREBY ORDERED AND ADJUDGED
that:
(1) KRS § 121.015(3)(b) be, and is hereby,
DECLARED UNCONSTITUIONAL;
(2) KRS § 6.751(2) and KRS 6.811(4) be, and are
hereby, DECLARED UNCONSTITUTIONAL;
(3) KRS § 6.767(1) and KRS § 6.811(6) be, and are
hereby, DECLARED UNCONSTITUTIONAL;
(4) KRS § 6.767(2) and KRS § 6.811(7) be, and are
hereby, DECLARED CONSTITUTIONAL; and
(5) KRS § 6.811(5) be, and is hereby, DECLARED
UNCONSTITUIONAL.
This 6th day of December, 2017.
[SEAL]

Signed By:
William O. Bertelsman WOB
United States District Judge

App. 43

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF KENTUCKY
NORTHERN DIVISION AT COVINGTON
CIVIL ACTION NO. 2:15-cv-155 (WOB-JGW)
[Filed December 1, 2017]
________________________________
JOHN SCHICKEL, ET AL.
)
PLAINTIFFS
)
)
VS.
)
)
CRAIG C. DILGER, ET AL.
)
DEFENDANTS
)
________________________________ )
MEMORANDUM OPINION AND ORDER
This matter is before the Court on the motion to
reconsider and amend order, or to stay enforcement of
order, by the Kentucky Registry of Election Finance
(“KREF”) defendants (Doc. 125), the plaintiff’s response
thereto (Doc. 130), and the defendants’ reply brief (Doc.
135). The Court has reviewed this matter and
concludes that oral argument is unnecessary.
On June 6, 2017, this Court issued a Memorandum
Opinion and Order granting in part and denying in
part the parties’ motions for summary judgment and
plaintiffs’ motion for a permanent injunction. (Doc.
122). The Court held, as relevant here, that KRS

App. 44
121.015(3)(b) is unconstitutional as viewpoint
discrimination in violation of the Equal Protection
Clause. Id. at 6-9. That is, by defining “caucus
campaign committee” to include only Democratic and
Republican caucus campaign committees, the statute
prevents any other caucus campaign committees from
enjoying the higher contribution limits found in KRS
121.150(11).
Here, the KREF defendants argue that the Court
improperly found that “the Democratic and Republican
political parties control caucus campaign committees.”
(Doc. 125 at 3). In support, defendants cite the Court’s
statement that “KRS § 121.150(11) allows two specific
political parties to receive the highest contributions:
executive committees of political parties and campaign
caucus committees.” (Doc. 122 at 7). It is true that
caucus campaign committee are not “political parties,”
and to that extent the statement was inaccurate.
However, the Court did not make the “finding” that
defendants assert. Nor would it have been necessary to
the Court’s legal conclusion, as defendants imply. See
Doc. 125 at 1 (“The Order declares the definition of
caucus campaign committee (KRS 121.015(3)(b)) to be
facially unconstitutional based on the mistaken
assumption that caucus campaign committees are
controlled by the Democratic and Republican parties.”)
(emphasis added).
In fact, the Court specifically recognized that caucus
campaign committees are separate from the political
parties’ executive committees. (Id. at 9). The Court held
that this distinction did not, however, “explain the
exclusionary definition found in subsection (3)(b).” (Id.).

App. 45
Nor did any such misapprehension determine the
level of scrutiny applied by the Court. But even if a
lesser standard applied, the same legal conclusion
ensues because the KREF defendants have identified
no state interest that is served by limiting the
definition of caucus campaign committees to those
labelled only Republican and Democratic. The
testimony cited in plaintiffs’ opposition brief makes this
abundantly clear. See Doc. 130 at 7.
Moreover, the fact that KRS § 121.015(3)(b)
excludes all but Republican and Democratic-labelled
caucus campaign committees from its definition aligns
the statute squarely with one of the dangers identified
in Buckley: that “contribution restrictions could have a
severe impact on political dialogue if the limitations
prevented candidates and political committees from
amassing the resources necessary for effective
advocacy.” Buckley v. Valeo, 424 U.S. 1, 21 (1976).
This is exactly plaintiffs’ point here. Because this
statute includes only the committees identified with
the two main political parties, committees identified
with any other political party are unable to avail
themselves of the higher contribution limits found in
KRS § 121.150(11). Any such committees are thereby
prevented from raising campaign funds on a level
playing field.
The Court uses the term “labelled” above, rather
than “affiliated” or “associated,” in recognition of
defendants’ argument that these committees are
independent bodies who are free to donate their funds
to candidates of any political persuasion. The Court
also notes that defendants have identified two

App. 46
instances where the Republican-labelled committees
have donated to Independent candidates.
This, however, does not advance defendants’ cause.
One reasonably assumes that donors give their money
to campaign committees with whom they have a
political affinity, and further that they assume their
donations will be spent accordingly. If not, why label
the caucus campaign committees with party names at
all? Putting aside that rhetorical question, the Court
concludes that two instances of out-of-party candidate
contributions do not neutralize the facial
unconstitutionality of the statute.
Further, defendants’ suggestion that this
constitutional infirmity might be remedied by simply
labelling the caucus campaign committees “majority”
and “minority” committees is fallacious. Any citizen
who is politically minded enough to donate their money
to a caucus campaign committee will know which of the
two main parties is in power at the time, and they will
donate accordingly. And this suggestion also assumes
— like KRS § 121.015(3)(b) — that only two political
parties are in the caucus campaign ring.
Moving on, defendants also lament that invalidating
KRS § 121.015(3)(b) while leaving KRS § 121.150(11)
intact “creates a significant void in the campaign
finance law that only the legislature has the authority
to fix.” (Doc. 125 at 2). That may be true. But KRS
§ 121.150(11) is not unconstitutional, and the Court
thus has no authority to strike or alter it. Obviously,
then, the task falls to the Kentucky legislature to
address these issues and the others identified by this
Court.

App. 47
The Court further finds defendants’ request for a
stay to be unwarranted. Staying the effect of these
rulings would irreparably harm plaintiff Watson, who
is running for office in 2018 and states,
understandably, that he needs to engage in fundraising
now.
Further, defendants may immediately appeal this
Court’s injunction to the United States Court of
Appeals for the Sixth Circuit. This would not prohibit
the Kentucky General Assembly from acting in the
meantime to address these issues. Indeed, the Court
takes judicial notice that the legislature is scheduled to
convene on January 2, 2018, in the very near future.
See www.ballotpedia.org/Kentucky_General_Assembly.
The Court also rejects defendants’ argument that
plaintiffs failed to give fair notice of their challenge to
KRS § 121.015(3)(b). First, defendants only raise this
argument for the first time in their reply brief in
support of the present motion to amend. (Doc. 135 at 4).
Second, pla i nt iffs ex pl icitly argued the
unconstitutionality of KRS 121.015(3)(b) in their
motion for summary judgment and for permanent
injunction (Doc. 63 at 34-35), and the KREF defendants
addressed it in their response (Doc. 67 at 19). This
argument is belated and without merit.
Finally, a word about the permanent injunction.
The injunction entered concurrently herewith is
d r a f t e d n a r r o w l y t o a d dress onl y t h e
unconstitutionality of KRS § 121.015(3)(b). As noted,
KRS § 121.150(11) is not unconstitutional on its face,
and it is not addressed. The Court also will not adopt
plaintiff’s suggestion to include an affirmative

App. 48
obligation for the KREF defendants to allow alternate
parties to create their own caucus campaign
committees. See Sessions v. Morales-Santana, 137 S.
Ct. 1678, 1698-1700 (2017) (noting that nullification of
unconstitutional statute that benefits one class is
better course in some circumstances than extending
benefits to other class). That matter, as noted, is for the
Kentucky legislature.
Therefore, having reviewed this matter, and the
Court being sufficiently advised,
IT IS ORDERED that defendants’ motion to
reconsider and amend order, or to stay enforcement of
order (Doc. 125) be, and is hereby, DENIED. A
permanent injunction enforcing the Court’s prior
Memorandum Opinion and Order shall enter
concurrently herewith.
This 1st day of December, 2017.
[SEAL]

Signed By:
William O. Bertelsman WOB
United States District Judge

App. 49

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF KENTUCKY
NORTHERN DIVISION AT COVINGTON
CIVIL ACTION NO. 2:15-cv-155 (WOB-JGW)
[Filed December 1, 2017]
________________________________
JOHN SCHICKEL, ET AL.
)
PLAINTIFFS
)
)
VS.
)
)
CRAIG C. DILGER, ET AL.
)
DEFENDANTS
)
________________________________ )
PERMANENT INJUNCTION
Pursuant to the Memorandum Opinion and Order
entered concurrently herewith and expressly
incorporated herein, the Court now enters the following
permanent injunction:
1. Defendants Hon. Craig C. Dilger, in his official
capacity as Chairman and member of the Kentucky
Registry of Election Finance, Hon. Terry Naydan, in
her official capacity as Vice Chair and member of
the Kentucky Registry of Election Finance, Hon.
Reid Haire, Hon. Chastity Ross, Hon. Robert
Mattingly, Hon. Elizabeth Weber, and Hon. Thomas
P. O’Brien II, in their official capacities as members

App. 50
of the Kentucky Registry of Election Finance, and
Hon. John Steffen, in his official capacity as the
Executive Director of the Kentucky Registry of
Election Finance, along with their successors in
office, officers, agents, servants, employees, and
attorneys, along with other persons who are in
active concert of participation with them who
receive notice of this injunction (collectively, “the
KREF Defendants”), pursuant to Fed. R. Civ. P. 65,
are hereby PERMANENTLY ENJOINED from
enforcing KRS § 121.015(3)(b);
2. Defendants Hon. George Troutman, in his
official capacity as Chairman and member of the
Kentucky Legislative Ethics Commission, Hon. Pat
Freibart, in her official capacity as Vice Chair and
member of the Kentucky Legislative Ethics
Commission, Hon. Elmer George, Hon. Bob
Fulkerson, Hon. Ken Winters, Hon. Anthony
Wilhoit, Hon. Tony Goetz, and Hon. Tom Jensen, in
their official capacities as members of the Kentucky
Legislative Ethics Commission, and Hon. John
Schaaf, in his official capacity as the Executive
Director of the Kentucky Legislative Ethics
Commission, along with their successors in office,
officers, agents, servants, employees, and attorneys,
along with other persons who are in active concert
of participation with them who receive notice of this
injunction (collectively, “the KLEC Defendants”),
pursuant to Fed. R. Civ. P. 65, are hereby
PERMANENTLY ENJOINED from enforcing
KRS § 6.751(2), 6.811(4), 6.767(1), 6.811(6), and
6.811(5).

App. 51
This 1st day of December, 2017.
[SEAL]

Signed By:
William O. Bertelsman WOB
United States District Judge

App. 52

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF KENTUCKY
NORTHERN DIVISION AT COVINGTON
CIVIL ACTION NO. 2:15-cv-155 (WOB-JGW)
[Filed June 6, 2017]
________________________________
SEN. JOHN SCHICKEL, ET AL. )
PLAINTIFFS
)
)
VS.
)
)
CRAIG C. DILGER, ET AL.
)
DEFENDANTS
)
________________________________ )
MEMORANDUM OPINION AND ORDER
This is a civil rights action in which Plaintiffs allege
that Kentucky restrictions on campaign finance and
lobbyists violate their First Amendment right to free
speech and association, as well as their Fourteenth
Amendment right to Equal Protection.
This matter is before the Court on separate motions
for summary judgment on behalf of Defendant
Kentucky Registry of Election Finance (Doc. 62) and
Defendant Kentucky Legislative Ethics Commission
(Doc. 64), and corresponding cross motions for a
preliminary injunction, permanent injunction, and
summary judgment by Plaintiffs (Docs. 63, 65).

App. 53
Having reviewed this matter, and having previously
heard oral argument from the parties, the Court now
issues this Memorandum Opinion and Order.
Factual and Procedural Background
A. The Parties
Plaintiff John Schickel (“Schickel”) is the incumbent
State Senator for the 11th Senatorial District in
Kentucky. Plaintiff David Watson (“Watson”) is a
Libertarian candidate who ran, unsuccessfully, for the
6th House District in 2016.1 Plaintiff Ken Moellman
(“Moellman”) is a candidate for the office of Pendleton
County Judge/Executive in 2018.
Plaintiffs allege they desire to engage in activities
that are currently prohibited by funding restrictions
found in certain campaign finance statutes, as well as
ethics statutes that apply to legislators, legislative
candidates, their spouses, lobbyists, and the employers
of lobbyists. (Doc. 65-1 at 1-3).
Defendants are members of the Kentucky Registry
of Election Finance (“KREF”) and the Kentucky
Legislative Ethics Commission (“KLEC”). Plaintiffs
allege that Defendants, who are sued in their official
capacities, are responsible for the enforcement of the
challenged statutes because they can bring civil or
administrative enforcement actions, receive citizen

1

See also Kentucky House of Representatives Elections, 2016,
BALLOTPEDIA (last visited May 31, 2017),
https://ballotpedia.org/Kentucky_House_of_Representatives_elec
tions,_2016.

App. 54
complaints regarding alleged violations, and refer
enforcement matters for criminal prosecution. (Id.).
B. The Statutes
Plaintiffs challenge two categories of statutes:
campaign finance restrictions and lobbying restrictions.
The campaign finance restrictions: (1) limit
campaign contributions from individual donors to
$1,000 per election; (2) limit campaign contributions
from state executive committees or caucus campaign
committees to $5,000 per election; (3) limit the amount
a candidate may loan to his own campaign to $10,000
per election; (4) and prohibit campaign contributions
from a permanent committee which, in the aggregate,
exceed 50% of a candidate’s total contributions, or
$10,000, whichever is greater.
On March 27, 2017, new legislation that made
substantial changes to the campaign finance
restrictions at issue was signed into law by the
Governor of Kentucky. The revisions to KRS § 121.150,
found in 2017 Senate Bill 75, are taken into account in
the Court’s analysis.
The lobbying restrictions, which only Schickel and
Watson challenge: (1) prohibit a legislator or his spouse
from accepting “anything of value” from a legislative
agent2 or his employer; (2) prohibit a member of the
2

“The definition of legislative agent under KRS 6.611(22)(a) . . . [is]
individuals who are engaged for compensation to participate in
lobbying activities on behalf of an organized association, coalition,
or public interest entity formed for the purpose of promoting or
otherwise influencing legislation, and the nature and identity of

App. 55
General Assembly, a candidate for the General
Assembly, or his campaign committee, from accepting
a campaign contribution from a legislative agent at any
time, or from a lobbyist’s employer during a regular
session of the General Assembly; (3) prohibit lobbyists
and their employers from offering anything of value to
legislators, candidates, or their spouse or child, or
making campaign contributions to legislators,
candidates, or campaign committees; and (4) prohibit
lobbyists from soliciting contributions for candidates or
legislators.
C. Procedural History
Plaintiffs filed their complaint on August 24, 2015,
alleging the unconstitutionality of the challenged
statutes, seeking either a temporary restraining order
or preliminary injunction to enjoin enforcement of the
statutes. (Doc. 1). Defendants moved to dismiss for lack
of standing. (Doc. 17). This Court denied the motion to
dismiss. (Doc. 25). Defendants now move for summary
judgment. (Doc. 62, 64). Plaintiffs also move for
summary judgment, in addition to seeking preliminary
and permanent injunctions. (Doc 63, 65).

such entity, the subject matter of bill numbers of the legislation to
be lobbied, and the source of the entity or association’s funds and
financial resources must be reported to the commission.” Editor’s
Note to KRS § 6.807.

App. 56
Analysis
A. Appropriate Levels of Scrutiny
For claims relating to campaign finance restrictions,
the Supreme Court applies strict scrutiny to limitations
on candidate speech (i.e., campaign expenditures), and
mid-level scrutiny for donor speech (i.e., campaign
contributions), requiring that the limit be “closely
drawn to avoid unnecessary abridgement of
associational freedoms.” McCutcheon v. Fed. Election
Comm’n, ___ U.S. ___, 134 S. Ct. 1434, 1437 (2014).
For claims relating to lobbying restrictions, laws
which may curtail the freedom of association are
subject to strict scrutiny. Nat’l Ass’n for Advancement
of Colored People v. State of Ala. ex rel. Patterson, 357
U.S. 449, 461 (1958); Fed. Election Comm’n v. Nat’l
Right to Work Comm., 459 U.S. 197, 206 (1982).
Further, the Sixth Circuit applies strict scrutiny to
burdens on “core political speech,” requiring that a
burdensome provision be narrowly tailored to serve the
overriding state interest. Gables v. Patton, 142 F.3d
940, 945 (6th Cir. 1998).
B. Campaign Finance Restrictions
1. $1,000 per donor contribution limit – KRS
§ 121.150(6)
Previously, KRS § 121.150(6) stated:
No candidate, slate of candidates, campaign
committee, political issues committee, nor
anyone acting on their behalf, shall accept a
contribution of more than one thousand dollars

App. 57
($1,000) from any person, permanent committee,
or contributing organization in any one (1)
election. No person, permanent committee, or
contributing organization shall contribute more
than one thousand dollars ($1,000) to any one (1)
candidate, campaign committee, political issues
committee, nor anyone acting on their behalf, in
any one (1) election.
Prior to the revisions enacted by Senate Bill 75,
KRS § 121.150(6) prevented a candidate from receiving
a contribution greater than $1,000 from any single
person, permanent committee, or organization within
an election cycle.
Plaintiffs argued that the $1,000 limitation to each
candidate per donor placed an undue burden on
candidates for office because the buying power of
$1,000 is not the same today as it was in 1996 when
the limit was first introduced. Plaintiffs asserted that
the limit was not closely drawn to avoid abridgment of
First Amendment rights because the amount was so
low that it prevented candidates “from mounting
effective campaigns.”
Senate Bill 75 has raised the $1,000 limit to $2,000,
and it requires that the limit be indexed for inflation on
a bi-annual basis. This revision thus directly addresses
Plaintiffs’ concern of the limit’s insufficiency and its
potential restraint on speech.
Therefore, the Court will deny as moot all motions
for summary judgment with respect to KRS
§ 121.150(6).

App. 58
2. $5,000 caucus campaign committee
contribution limit – KRS 121.150(11) &
121.015(3)(b)
Currently, KRS § 121.150(11) states:
(a) No person shall contribute more than five
thousand dollars ($5,000) to the state executive
committee of a political party in any one (1)
year. The contribution limit in this paragraph
shall not apply to a contribution designated
exclusively for a state executive committee’s
building fund account established under Section
4 of this Act.
(b) No person shall contribute more than five
thousand dollars ($5,000) to a subdivision or
affiliate of a state political party in any one (1)
calendar year.
(c) No person shall contribute more than five
thousand dollars ($5,000) to a caucus campaign
committee in any one (1) year.
KRS § 121.150(11) allows individual donors to give
up to $5,000 per year to either a state political party’s
executive committee or a caucus campaign committee.
Plaintiffs assert that this provision constitutes
viewpoint discrimination in violation of the Equal
Protection Clause by allowing individuals to give larger
contributions to the Republican and Democratic
parties, the only political parties in Kentucky that
maintain such committees. Plaintiffs believe this
creates a grave disadvantage for third party candidates
such as Watson.

App. 59
The government commits viewpoint discrimination
when it gives preference to certain speakers over
others. Citizens United v. Fed. Election Comm’n, 558
U.S. 310, 312 (2010). Here, KRS § 121.150(11) allows
two specific political parties to receive the highest
contributions: executive committees of political parties
and campaign caucus committees. Subsection
121.015(3)(b) defines “caucus campaign committee”
narrowly to include only four specific groups:
“Caucus campaign committee,” which means
members of one (1) of the following caucus
groups who receive contributions and make
expenditures to support or oppose one (1) or
more specific candidates or slates of candidates
for nomination or election, or a committee:
1. House Democratic caucus campaign
committee;
2. House Republican caucus campaign
committee;
3. Senate Democratic caucus campaign
committee; and
4. Senate Republican caucus campaign
committee.
KRS § 121.015(3)(b).
The statute thus does not allow for the same
contributions to other party caucus campaign
committees that may be created in the future.3 A newly
created Senate Libertarian caucus campaign
3

KRS § 121.150(11) taken alone on its face is constitutional
because the subsection does not preclude the creation of a minor
party caucus campaign committee.

App. 60
committee, for example, would not be eligible for the
$5,000 contribution caps, and instead could only
receive up to $2,000 from each donor if it were to
qualify as a permanent committee. See KRS
§ 121.150(10).
Equal protection challenges to election finance
restrictions under the Fourteenth Amendment must
survive “exacting scrutiny.” Buckley v. Valeo, 424 U.S.
1, 44-45 (1976). “The restriction can be sustained only
if it furthers a vital governmental interest that is
achieved by a means that does not unfairly or
unnecessarily burden either a minority party’s or an
individual candidate’s equally important interest in the
continued availability of political opportunity.” Id. at 94
(internal quotations and citations omitted).
Defendants argue that the purpose of caucus
campaign committees is to “separate the legislative
caucus from control by a political party’s executive
committee.” (Doc. 67-1 at 21). While this argument may
explain the purpose of caucus campaign committees, it
does not explain the exclusionary definition found in
subsection (3)(b). The legislature could have defined
“caucus campaign committees” in a broader way that
would allow its application to committees affiliated
with political groups other than the Republicans or
Democrats.
Defendants further argue that nothing prevents
either of the major party caucus campaign committees
from contributing to minor party candidates. Though
true, it remains that subsection (3)(b) on its face treats
members of major and minor parties differently.
Defendants have not demonstrated that this

App. 61
differential treatment is supported by a vital
government interest.
Therefore, KRS § 121.015(3)(b) is unconstitutional
on its face.4
Therefore, regarding KRS § 121.150(11) and KRS
§121.015(3)(b), the Court will grant in part and deny in
part both Defendants’ and Plaintiffs’ motions for
summary judgment in line with the analysis above.
3. $10,000 limit on self-funding campaign
loans – KRS § 121.150(13)
Previously, KRS § 121.150(13) stated:
No candidates running as a slate for the offices
of Governor and Lieutenant Governor shall
make combined total personal loans to their
committee in excess of fifty thousand dollars
($50,000) in any one (1) election. No candidate
for any other statewide elected state office shall
lend to his committee any amount in excess of
twenty-five thousand dollars ($25,000) in any
one (1) election. In campaigning for all other
offices, no candidate shall lend to his committee
more than ten thousand dollars ($10,000) in any
one (1) election.
KRS § 121.150(13) imposed limitations on the
amount of money a candidate could loan their own

4

Senate Bill 75 recently increased the limit in KRS § 121.150(11)
from the previous cap of $2,500 to the current limit of $5,000. The
increase in the fundraising limit from $2,500 to $5,000 thus
creates an even larger benefit for the two majority parties.

App. 62
campaign committee, capped at various amounts
depending on the office. Id. Both parties recognize that
in 2004 the Sixth Circuit found this section of the
statute to be wholly unconstitutional, Anderson v.
Spear, 356 F.3d 651, 673 (6th Cir. 2004), although
Plaintiffs expressed concern that Defendant KREF may
arbitrarily enforce the statute regardless.
Senate Bill 75 has eliminated KRS § 121.150(13).
Therefore, the Court will deny as moot all motions for
summary judgment with respect to that provision.
4.
$10,000
or
50%
limit
on
permanent/executive/caucus campaign
committee receipts – KRS 121.150(23)
Previously, KRS § 121.150(23)(a)-(c) stated:
(a) A candidate or a slate of candidates for
elective public office shall not accept
contributions from permanent committees
which, in the aggregate, exceed fifty percent
(50%) of the total contributions accepted by the
candidate or a slate of candidates in any one (1)
election or ten thousand dollars ($10,000) in any
one (1) election, whichever is the greater
amount. The percentage of the total
contributions or dollar amounts of contributions
accepted by a candidate or a slate of candidates
in an election that is accepted from permanent
committees shall be calculated as of the day of
each election. Funds in a candidate’s or a slate of
candidates’ campaign account which are carried
forward from one (1) election to another shall
not be considered in calculating the acceptable

App. 63
percentage or dollar amount of contributions
which may be accepted from permanent
committees for the election for which the funds
are carried forward. A candidate or a slate of
candidates may, without penalty, contribute
funds to his campaign account not later than
sixty (60) days following the election so as not to
exceed the permitted percentage or dollar
amount of contributions which may be accepted
from permanent committees or the candidate or
a slate of candidates may, not later than sixty
(60) days after the end of the election, refund
any excess permanent committee contributions
on a pro rata basis to the permanent committees
whose contributions are accepted after the
aggregate limit has been reached.
(b) The provisions of paragraph (a) of this
subsection regarding the receipt of aggregate
contributions from permanent committees in
any one (1) election shall also apply separately
to the receipt of aggregate contributions from
executive committees of any county, district,
state, or federal political party in any one (1)
election.
(c) The provisions of paragraph (a) of this
subsection regarding the receipt of aggregate
contributions from permanent committees in
any one (1) election shall also apply separately
to the receipt of aggregate contributions from
caucus campaign committees.
KRS § 121.150(23) prevented candidates from
accepting more than $10,000 or 50% of their aggregate

App. 64
campaign funds (whichever is greater) from
(a) permanent committees (more commonly known as
political action committees or “PACs”), (b) executive
committees (such as the Democratic/
Libertarian/Republican Party of Kentucky), or
(c) caucus campaign committees.
This provision thus allowed these partisan
committees to inject a large sum of cash into a
candidate’s campaign, but prevented the groups from
contributing a literal majority of the candidate’s total
funds, capping the maximum at half of the aggregate
total of the candidate’s war chests.
Senate Bill 75 has completely eliminated KRS
§ 121.150(23), including subsections (a) through (c).
Therefore, the Court will deny as moot all motions for
summary judgment with respect to KRS § 121.150(23).
C. Restrictions on Lobbyists
1. Statutory ban on a legislator’s receipt of
“anything of value” - KRS § 6.751(2) & KRS
§ 6.811(4)
KRS § 6.751(2) states:
A legislator or his spouse shall not solicit,
accept, or agree to accept anything of value from
a legislative agent or an employer. Violation of
this subsection is a Class B misdemeanor.
KRS § 6.811(4) states:
A legislative agent or employer shall not
knowingly offer, give, or agree to give anything

App. 65
of value to a legislator, a candidate, or the
spouse or child of a legislator or candidate.
Plaintiffs allege that these provisions, referred to by
both parties as the “gift ban,” are constitutionally
infirm in many respects.
First, Plaintiffs argue a prohibition on the receipt of
“anything of value” by a legislator from a lobbyist or his
employer is unconstitutionally vague and overbroad,
which creates a chilling effect on the right to lobby.
Further, they allege the ban violates the Fourteenth
Amendment’s guarantee of equal protection because it
(i) treats lobbyists differently and (ii) creates a contentbased restriction by targeting the speaker’s identity.
KRS § 6.611(2)(a) defines “anything of value”
broadly to include:
1. A pecuniary item, including money, or a bank
bill or note;
2. A promissory note, bill of exchange, order,
draft, warrant, check, or bond given for the
payment of money;
3. A contract, agreement, promise, or other
obligation for an advance, conveyance,
forgiveness of indebtedness, deposit,
distribution, loan, payment, gift, pledge, or
transfer of money;
4. A stock, bond, note, or other investment
interest in an entity;
5. A receipt given for the payment of money or
other property;
6. A right in action;
7. A gift, tangible good, chattel, or an interest in

App. 66
a gift, tangible good, or chattel;
8. A loan or forgiveness of indebtedness;
9. A work of art, antique, or collectible;
10. An automobile or other means of personal
transportation;
11. Real property or an interest in real property,
including title to realty; a fee simple or partial
interest, present or future, contingent or vested,
within realty; a leasehold interest; or other
beneficial interest in realty;
12. A rebate or discount in the price of anything
of value unless the rebate or discount is made in
the ordinary course of business to a member of
the public without regard to that person’s status
as a legislator;
13. A promise or offer of employment; or
14. Any other thing of value that is pecuniary or
compensatory in value to a person, or the
primary significance of which is economic gain.
An additional subsection of this definition states that
“compensation, food, beverages, entertainment,
transportation, lodging, or other goods” are also
prohibited if, and only if, they are from a lobbyist or a
lobbyist’s employer. KRS § 6.611(2)(b)(2). Violation of
KRS § 6.751(2) by either a legislator or legislative
candidate, or his/her spouse, is a Class B criminal
misdemeanor.
KRS § 6.611(2)(b)(8) carves out an exception under
which an active legislator may accept “the cost of
attendance or participation, and of food and beverages
consumed at events” to which either the entirety of the

App. 67
body of the legislature, a joint committee task force, or
an approved caucus of legislators is invited.
Simply put, it is a criminal act for a legislator to
attend an event hosted by a company which lobbies the
state government, but it is not a criminal act if the
company has extended the invitation to everyone in the
legislature. There is no requirement for the lobbyist to
report which legislators attended the event, if any,
regardless of the cost, location, or purpose of the event.
Qualifying events may be held outside of the state of
Kentucky, and could even include an all-expense paid
vacation to a foreign destination or luxury resort, as
long as the invitation is a blanket one to a qualifying
group of legislators.
In 2014, KRS § 6.611 was amended to remove a de
minimis exception on incidental costs incurred by
lobbyists when hosting an individual legislator. That
now-defunct exception allowed for expenditures up to
$100 per year for each legislator, and all expenditures
had to be reported by the lobbyist to the Ethics
Commission. Alternatively, the $100 limit could also
count towards non-promotional, non-cash items given
to a legislator on behalf of a lobbyist or his employer.
The crux of Plaintiffs’ challenge to the “gift ban” is
whether the removal of the de minimis exception in
2014 was intended to combat actual quid pro quo
corruption, in a way that does not impose an
unnecessary burden on speech. This issue, as well as
the other constitutional issues raised by Plaintiffs, are
examined below.

App. 68
a. Vagueness
A statute which proscribes criminal punishment
violates the Fifth Amendment’s guarantee of due
process when it is “so vague that it fails to give
ordinary people fair notice of the conduct it punishes,
or so standardless that it invites arbitrary
enforcement.” Johnson v. United States, ___ U.S. ___,
135 S. Ct. 2551, 2556 (2015).
An illustration of how arbitrarily this “gift ban” is
applied can be found in the testimony of the Executive
Director of the Ethics Commission. In his deposition,
the Executive Director admitted that a bottle of water
consumed by a legislator during the course of a meeting
at a lobbyist’s office to discuss a pending bill would be
a “possible” thing of value that would violate the ban,
and suggested that the legislator should literally call
him on the telephone to “ask [] if he should accept it
under the circumstance.” (Schaaf Depo., Doc. 47-1 at
49-50). This testimony alone indicates that the law is
unconstitutionally vague because it does not give a
person of ordinary intelligence the ability to know what
conduct is prohibited. Johnson, 135 S. Ct. at 2556.
Plaintiffs argue that, given the elimination of the de
minimis exception, this ban does not pass closely
drawn scrutiny, let alone strict scrutiny, because the
ban is not related to the deterrence of quid pro quo
corruption. They point to further testimony from the
Executive Director of the Ethics Commission, who
admitted that the ban was actually enacted due to
complaints by some of the legislators who “were
surprised by the fact that their names were being
reported for some event that they didn’t think was

App. 69
going to be reported that they attended or didn’t attend
in some cases.” (Schaaf Depo., Doc. 47-1 at 189-191).
In addition to creating an as-applied vagueness
problem, this testimony is a clear admission that the
reason for removing the de minimis exception was not
problems with quid pro quo corruption or its
appearance. Moreover, removing the requirement for
disclosure of a lobbyist’s expenditures on individual
legislators eliminated a mechanism of accountability
and transparency, simply because the legislators
objected to their names showing up on the reports.
Another vagueness problem arises with the
exception for events to which the entire legislature is
invited. What if an event hosted by a large company
who employs lobbyists is open to the general public and
no specific invitation is required? Is it necessary that
the entire legislature needs to be put on notice if
Senator Schickel wishes to attend the event? What if
the Senator is under the impression that the entire
legislature was invited, but later learns that was not
the case? KRS § 6.751(2) is too vague to answer these
questions. It is thus unconstitutional because it does
not provide fair notice of what conduct might violate it,
creating opportunities for arbitrary enforcement of
criminal law.
b. Content-Based Restriction on Speech
Plaintiffs also allege that the gift ban amounts to a
content-based speech restriction because it targets the
identity of the giver.
“Government regulation of speech is content based
if a law applies to particular speech because of the topic

App. 70
discussed or the idea or message expressed.” Reed v.
Town of Gilbert, Ariz., ___ U.S. ___, 135 S. Ct. 2218,
2227 (2015). A law in which the restriction is speakerbased does not render it content neutral because
“speech restrictions based on the identity of the
speaker are all too often simply a means to control
content.” Reed, 135 S. Ct. at 2230 (internal quotations
and citations omitted).
“Political speech must prevail against laws that
would suppress it, whether by design or inadvertence.
Laws that burden political speech are subject to strict
scrutiny, which requires the Government to prove that
the restriction furthers a compelling interest and is
narrowly tailored to achieve that interest.” Citizens
United v. Fed. Election Comm’n, 558 U.S. 310, 340
(2010).
Here, lobbyists and their employers are the only
persons banned from giving a legislator “anything of
value.” The purpose of a lobbyist is to influence
government, which is the very heart of politics.
Therefore, a speaker-based ban which suppresses
political speech requires the government to show that
the ban is narrowly tailored to achieve the purpose of
combatting quid pro quo corruption. Citizens United,
558 U.S. at 340.
As previously discussed, the statutes allow lobbyists
and their employers to invite all legislators to events,
with no requirement to report which legislators
actually end up attending. This lack of accountability
for “group events” does not render a complete ban on
invitations to fewer than all legislators narrowly
tailored to prevent quid pro quo corruption. At any

App. 71
event, large or small, a lobbyist may still corner a
particular legislator in an effort to broker a quid pro
quo deal. Further, the deletion of the $100 de minimis
exception increases this risk because it eliminated the
only reporting mechanism—meaning information about
which legislators attended events hosted by lobbyists
and their employers is no longer public record.
c. Chilling Effect and Overbreadth
Plaintiffs next allege that the gift ban creates a
chilling effect on speech and is overly broad, two issues
that go hand in hand.
The act of lobbying is protected by the First
Amendment right to petition the government. Eaton v.
Newport Bd. of Educ., 975 F.2d 292, 297 (6th Cir.
1992). Lobbying is thus protected from overly broad
restrictions that cause a chilling effect on the protected
expression. Broadrick v. Oklahoma, 413 U.S. 601, 630
(1973). The Sixth Circuit has stated:
A law is overbroad under the First Amendment
if it reaches a substantial number of
impermissible applications relative to the law’s
legitimate sweep. The overbreadth doctrine
exists to prevent the chilling of future protected
expression. Therefore, any law imposing
restrictions so broad that it chills speech outside
the purview of its legitimate regulatory purpose
will be struck down.
Deja Vu of Nashville, Inc. v. Metro. Gov’t of Nashville
& Davidson Cty., Tennessee, 274 F.3d 377, 387 (6th Cir.
2001)(internal quotations and citations omitted). A
law’s use of criminal sanctions, as found in KRS

App. 72
§ 6.751(2), magnifies the chilling effect. Connection
Distrib. Co. v. Holder, 557 F.3d 321, 345 (6th Cir.
2009).
As discussed, the scope of the gift ban is so broad
that even a glass of water may be considered a
violation. Plaintiffs argue that if water is an item of
value, then so might be the heating of a building on a
cold winter day, or air-conditioned cooling in the middle
of the summer. Not knowing what otherwise mundane
amenities may constitute something of “value” would
cause hesitation on the part of a legislator if invited to
a lobbyist’s office to discuss a matter of importance.
As Plaintiffs point out, lobbyists and their
employers are often major players in whatever industry
they participate, and they serve as “excellent sources of
information, and are experts in certain industries and
fields.” (Doc. 65-1 at 4). “Influence and access,
moreover, are not sinister in nature. Some influence,
such as wise counsel from a trusted advisor—even if
that advisor is a lobbyist—can enhance the
effectiveness of our representative government.” Green
Party of Connecticut v. Garfield, 616 F.3d 189, 206 (2d
Cir. 2010).
If a legislator is hesitant to visit a factory or
manufacturing facility operated by a company that
actively lobbies the legislature for fear that the visit
may constitute an economic benefit, the legislator
misses out on the opportunity to learn more about that
particular industry. If even the act of accepting a glass
of water could amount to a criminal violation, a
legislator would reasonably be hesitant to attend a

App. 73
meeting at a lobbyist’s office to discuss a matter of
potential public importance.
Therefore, the gift ban may include innocuous
interactions between legislators and constituents that
could cause a chilling effect on fundamental
interactions in the furtherance of the democratic
process.
In addition, the law impedes the legislator’s right,
as an individual, to associate with a member of the
public, having a direct effect on personal relationships
that may exist prior to and outside of the lobbyist’s
professional career. As Plaintiffs note, the ban
prohibits a member of the Kentucky legislature from
attending a social event held by his friend if that
person happens to be a lobbyist. This ban extends even
to the legislator’s spouse, and it is written so broadly
that it would include private events hosted by a close
friend, such as a family dinner or graduation party.
Defendants argue that legislators are free to attend
such events within the confines of this ban as long as
the legislator or his/her spouse reimburses the lobbyist
for anything of value obtained. As KRS § 6.611 is
currently written, that would include paying the host
for any entertainment, food, or drink consumed by
either the legislator or spouse at the event. This
requirement is clearly an overreaching and
unreasonable restraint on an individual’s freedom of
association with other members of the public.
The vagueness and overbreadth of this section may
be illustrated by the following example: suppose
someone is employed by the Northern Kentucky

App. 74
Chamber of Commerce, and part of his or her duty is to
assist in lobbying. Suppose that person’s father dies
and he or she is paying for a funeral, at the conclusion
of which refreshments are served. Suppose further that
a state legislator who is a friend of the lobbyist’s
brother attends the funeral and partakes of the
refreshments, but the legislator does not know that the
host is a lobbyist.
Under the language of the statute, would an offense
be committed by the legislator? The statute is vague on
this point. It is also overbroad in that fear of its
application would deter people from engaging in
activities which are protected by freedom of association
and the liberty guaranteed by the Constitution of the
United States.
d. Equal Protection
Plaintiffs also allege that the gift ban treats
lobbyists differently from other constituents, and is
therefore in violation of their rights to equal protection.
Even though lobbyists and their employers are not
part of a suspect class, a law that treats them
differently from other citizens is subject to the highest
level of scrutiny when it seeks to suppress their
political expression. Austin v. Michigan Chamber of
Commerce, 494 U.S. 652, 666 (1990)(“Because the right
to engage in political expression is fundamental to our
constitutional system, statutory classifications
impinging upon that right must be narrowly tailored to
serve a compelling governmental interest.”)(citing
Police Department of Chicago v. Mosley, 408 U.S. 92,

App. 75
101 (1972), overruled on other grounds by Citizens
United v. Fed. Election Comm’n, 558 U.S. 310 (2010)).
As discussed, influencing the government through
the act of lobbying is at the heart of the political
process. A law that specifically restricts what a lobbyist
can and cannot do regarding a legislative member of
government is a suppression on their freedom of
association with those individuals. Id.
Therefore, the Court will deny Defendants’ motion
for summary judgment and grant Plaintiff’s motion for
summary judgment with respect to KRS § 6.751(2) and
KRS § 6.811(4).
2. Statutory ban on campaign contributions
from lobbyists at all times – KRS § 6.767(1) &
KRS § 6.811(6)
KRS § 6.767(1) states:
A member of the General Assembly, candidate
for the General Assembly, or his or her
campaign committee shall not accept a campaign
contribution from a legislative agent. Violation
of this provision is ethical misconduct.
KRS § 6.811(6) states:
A legislative agent shall not make a campaign
contribution to a legislator, a candidate, or his or
her campaign committee.
KRS § 6.767(1) and KRS § 6.811(6) together thus
impose a complete ban on campaign contributions from
lobbyists at all times.

App. 76
Contributions to a candidate or incumbent
legislator’s campaign are protected by the First
Amendment as both a means of political expression and
political association. McCutcheon v. Fed. Election
Comm’n, ___ U.S. ___, 134 S. Ct. 1434, 1448 (2014).
Campaign contributions may only be limited to serve
the legitimate government interest of preventing quid
pro quo corruption or its appearance. Id. at 1450.
Any such restrictions must be “closely drawn to
avoid unnecessary abridgment of associational
freedoms.” Buckley v. Valeo, 424 U.S. 1, 25 (1976). The
Sixth Circuit applies strict scrutiny to burdens on “core
political speech,” requiring that a burdensome
provision be narrowly tailored to serve the overriding
state interest. Gables v. Patton, 142 F.3d 940, 945 (6th
Cir. 1998). The government has the burden of proving
that a restriction on campaign contributions furthers
the objective of preventing quid pro quo corruption or
its appearance. McCutcheon, 134 S. Ct. at 1452.
Here, Defendants fail to show that a complete ban
on campaign contributions from lobbyists is narrowly
tailored to prevent quid pro quo corruption. Defendants
point to North Carolina Right to Life, Inc. v. Bartlett as
an example of restrictions on contributions from
lobbyists that have been upheld as constitutional. 168
F.3d 705 (4th Cir. 1999). However, the Fourth Circuit
found North Carolina’s ban on contributions made by
lobbyists to be constitutional because it was narrowly
tailored to “last only during the legislative session.”
Bartlett, 168 F.3d at 716.
North Carolina’s restrictions do nothing more
than place a temporary hold on appellees’ ability

App. 77
to contribute during the General Assembly
session, leaving them free to contribute during
the rest of the calendar year and to engage in
political speech for the entire year.
Id. at 715.
Defendants cite to a similar case in which the
Supreme Court of Vermont also found a ban on
contributions from lobbyists during a legislative session
to be constitutional because “the limited prohibition
focuses on a narrow period during which legislators
could be, or could appear to be, pressured, coerced, or
tempted into voting on the basis of cash contributions
rather than on consideration of the public weal.”
Kimbell v. Hooper, 665 A.2d 44, 51 (Vt. 1995).
Plaintiffs and Defendants both cite to Green Party
of Connecticut, where the Second Circuit struck down
a ban on contributions from lobbyists, although
Defendants argue that the Court did so only “because
the lobbyists had nothing to do with the scandal at
issue.” (Doc. 70 at 22).
In fact, Garfield echoes the same concerns about
complete bans on contributions that underline
Plaintiffs’ claims:
Indeed, a contribution ban cuts off even the
symbolic expression of support evidenced by a
small contribution. Thus, if the state’s interests
in this case can be achieved by means of a limit
on lobbyist contributions, rather than a ban, the
ban should be struck down for failing to avoid
unnecessary abridgment of associational
freedoms.

App. 78
Green Party of Connecticut v. Garfield, 616 F.3d 189,
206 (2d Cir. 2010)(internal quotations and citations
omitted).
Here, the Kentucky statutes at issue do not permit
lobbyists to make contributions during any time of
year. It is clear that the statute could be narrowed to
prohibit lobbyists from contributing only during an
active legislative session.
The Court concludes that Kentucky’s complete ban
on all campaign contributions from lobbyists is
unconstitutional because there are less restrictive
means available that may achieve the same goal, such
as setting an annual limit or limiting the ban to the
active legislative session. Thus, the statutes are neither
closely drawn nor narrowly tailored to achieve the
compelling state interest of preventing quid pro quo
corruption. See Bartlett, 168 F.3d at 715-16; Garfield,
616 F.3d at 206.
As with the previous example regarding the gift
ban, this statute is also overbroad because the
candidate might not know that the contribution comes
from a “legislative agent.” The donor might not even
know he or she is considered a “legislative agent” if
they are a clerical employee of an organization such as
the Chamber of Commerce or the Kentucky Bar
Association.
Therefore, the Court will deny Defendants’ motion
for summary judgment with respect to KRS § 6.757(1)
and KRS § 6.811(6).

App. 79
3. Ban on campaign contributions from
employers of lobbyists during an active
legislative session – KRS § 6.767(2) & KRS
§ 6.811(7)
KRS § 6.767(2) states:
A member of the General Assembly, candidate
for the General Assembly, or his or her
campaign committee shall not, during a regular
session of the General Assembly, accept a
campaign contribution from an employer of a
legislative agent, or from a permanent
committee as defined in KRS 121.015. This
subsection shall not apply to candidates for the
General Assembly in a special election held
during a regular session of the General
Assembly. Violation of this provision is ethical
misconduct.
KRS § 6.811(7) states:
During a regular session of the General
Assembly, an employer of a legislative agent
shall not make a campaign contribution to a
legislator, candidate, campaign committee for a
legislator or candidate, or caucus campaign
committee. This subsection shall not apply to
candidates for the General Assembly in a special
election held during a regular session of the
General Assembly.
KRS 6.767(2) prohibits legislators and candidates
from accepting campaign contributions from an
employer of a lobbyist during regular sessions of the
General Assembly, and KRS 6.811(7) reciprocally

App. 80
prohibits employers of lobbyists from making campaign
contributions during regular sessions of the General
Assembly.
Plaintiffs allege that a complete ban on
contributions at any time is a drastic limitation on
First Amendment rights, even during the General
Assembly session, and requires actual evidence of a
recent scandal to demonstrate that a ban is the only
possible method of curtailing corruption. The Sixth
Circuit has held that less restrictive bans are favorable
to an outright ban on contributions because the latter
is a drastic restriction and requires the government to
assert something greater than its own discretion to
“demonstrate how its contribution ban furthers a
sufficiently important interest.” Lavin v. Husted, 689
F.3d 543, 547 (6th Cir. 2012).
Here, KRS 6.767(2) and KRS 6.811(7) only impose
a ban during active legislative sessions. This timespecific prohibition is less restrictive than a complete
ban, and is closely drawn to the goal of deterring
corruption or its appearance by preventing money from
exchanging hands between legislators and lobbyists
during legislative sessions when quid pro quo
corruption would be a greater danger. Id.; see also
Kimbell, 665 A.2d at 51 (holding a contribution ban
during active legislative sessions constitutional because
it focused on a narrow period of time when legislators
could be, or appear to be, pressured to act).
Therefore, the Court will grant Defendants’ motion
for summary judgment and deny Plaintiffs’ motion for
summary judgment with respect to KRS § 6.767(2) and
KRS § 6.811(7).

App. 81
4. Prohibition on lobbyists serving as
campaign treasurers, and on soliciting,
controlling, or delivering a campaign
contribution. – KRS § 6.811(5)
KRS § 6.811(5) states:
A legislative agent shall not serve as a campaign
treasurer, and shall not directly solicit, control,
or deliver a campaign contribution, for a
candidate or legislator.
Plaintiffs allege that preventing a lobbyist from
soliciting on behalf of a candidate is an unreasonable
restriction on speech that does not serve the purpose of
combatting quid pro quo corruption, and it is not the
least restrictive means to achieve that goal.
An individual’s ability to solicit contributions,
rather than directly make a contribution, lies close to
the core of protected political speech. Garfield, 616 F.3d
at 207–08; see also Fed. Election Comm’n v. Beaumont,
539 U.S. 146, 163 (2003)(holding a ban on direct
contributions from corporations to be constitutional
because it did not interfere with the corporation’s right
to advocate for candidates through other avenues of
solicitation). As the Second Circuit stated:
Unlike laws limiting contributions, which
present marginal speech restrictions that lie
closer to the edges than to the core of political
expression, a limit on the solicitation of
otherwise permissible contributions prohibits
exactly the kind of expressive activity that lies
at the First Amendment’s core. That is because
the solicitation of contributions involves

App. 82
speech—to solicit contributions on behalf of a
candidate is to make a statement: “You should
support this candidate, not only at the polls but
with a financial contribution.” Whatever may be
said about whether money is speech, speech is
speech, even if it is speech about money.
Garfield, 616 F.3d at 207–08 (internal quotations and
citations omitted).
Here, KRS § 6.811(5) prohibits a lobbyist from
advocating his or her support for a candidate through
solicitation of any kind. This restriction impedes an
individual’s associational freedom by stifling a
lobbyist’s ability to express his or her opinion of a
candidate’s worthiness of support, even to a member of
his or her own family. Garfield, 616 F.3d at 203-04.
Defendants counter that this solicitation ban is
constitutional because other jurisdictions have upheld
similar bans. However, Defendants have shown no
evidence of recent corruption in Kentucky that would
show that the ban is narrowly tailored to address an
important government interest. Defendants’ reliance on
other states’ court findings of constitutionality on
different statutes is thus unavailing.
Therefore, the Court will deny Defendants’ motion
for summary judgment and grant Plaintiff’s motion for
summary judgment with respect to KRS § 6.811(5).
D. Plaintiff Ken Moellman, Jr.’s standing
“To establish Article III standing, an injury must be
concrete, particularized, and actual or imminent; fairly
traceable to the challenged action; and redressable by

App. 83
a favorable ruling.” Russell v. Lundergan-Grimes, 784
F.3d 1037, 1049 (6th Cir. 2015) (quoting Clapper v.
Amnesty Intern. USA, 568 U.S. 398, 133 S.Ct. 1138,
1147 (2013)).
To demonstrate standing, Plaintiffs need only plead
that they reasonably fear actions that might be taken
by Defendants that would cause them an injury in fact.
Id. “Where plaintiffs allege an intention to engage in a
course of conduct arguably affected with a
constitutional interest which is clearly proscribed by
statute, courts have found standing to challenge the
statute, even absent a specific threat of enforcement.”
United Food & Commercial Workers Int’l Union, AFLCIO, CLC v. IBP, Inc., 857 F.2d 422, 428 (8th Cir.
1988).
Moellman alleges his intent to run for County
Judge/Executive of Pendelton County in the 2018
election. Defendants assert that Moellman lacks
standing because he has yet to register to run for said
office. This argument is not well taken. According to
the Kentucky Secretary of State’s website, the earliest
filing date for the seat in question would be November
8, 2017, and therefore Moellman is unable to officially
register until that date.5 Though it is possible for a
potential candidate to file a “Letter of Intent” with
KREF prior to the open ballot registration, it is not
5

County Judge/Executive Republican and Democrat Party
Candidates Primary Election, COMMONWEALTH OF KENTUCKY,
OFFICE OF THE SECRETARY OF STATE,
http://apps.sos.ky.gov/CandidateFilingDocuments/CountyJudge
Executive_RepublicanDemocraticPrimary.pdf (last visited May 31,
2017).

App. 84
required.6 Therefore, Moellman’s expressed intent to
run for election is sufficient to confer standing.
Therefore, the Court will deny Defendants’ motion
for summary judgment and grant Plaintiffs’ motion for
summary judgment with respect to Ken Moellman Jr.’s
standing in the instant case.
Therefore, having heard the parties, and the Court
being sufficiently advised,
IT IS ORDERED that:

6

(1)

Defendants’ motion for summary judgment
(Doc. 62) and Plaintiffs’ motion for summary
judgment and injunction (Doc. 63) with
respect to KRS § 121.150(6) be, and are
hereby, DENIED as moot;

(2)

Defendants’ motion for summary judgment
(Doc. 62) and Plaintiffs’ motion for summary
judgment and injunction (Doc. 63) with
respect to KRS § 121.150(11) and KRS
§ 121.015(3)(b) be, and are hereby
GRANTED in part and DENIED in part, in
line with the analysis above;

(3)

Defendants’ motion for summary judgment
(Doc. 62) and Plaintiffs’ motion for summary
judgment and injunction (Doc. 63) with
respect to KRS § 121.150(13) (Doc. 62) be,
and are hereby, DENIED as moot;

Guide to Campaign Finance, KREF, http://kref.ky.gov/
SiteAssets/Pages/Online-Training/Candidate%20Guide%
20to%20Campaign%20Finance.pdf (last visited May 31, 2017).

App. 85
(4)

Defendants’ motion for summary judgment
(Doc. 62) and Plaintiffs’ motion for summary
judgment and injunction (Doc. 63) with
respect to KRS § 121.150(23) (Doc. 62) be,
and are hereby, DENIED as moot;

(5)

Defendants’ motion for summary judgment
(Doc. 64) with respect to KRS § 6.751(2) be,
and is hereby, DENIED;

(6)

Plaintiffs’ motion for summary judgment and
injunction (Doc. 65) with respect to KRS
§ 121.751(2) be, and is hereby, GRANTED;

(7)

Defendants’ motion for summary judgment
(Doc. 64) with respect to KRS § 6.811(4) be,
and is hereby, DENIED;

(8)

Plaintiffs’ motion for summary judgment and
injunction (Doc. 65) with respect to KRS
§ 6.811(4) be, and is hereby, GRANTED;

(9)

Defendants’ motion for summary judgment
(Doc. 64) with respect to KRS § 6.767(1) be,
and is hereby, DENIED;

(10)

Plaintiffs’ motion for summary judgment and
injunction (Doc. 65) with respect to KRS
§ 6.767(1) be, and is hereby, GRANTED;

(11)

Defendants’ motion for summary judgment
(Doc. 64) with respect to KRS § 6.811(6) be,
and is hereby, DENIED;

(12)

Plaintiffs’ motion for summary judgment and
injunction (Doc. 65) with respect to KRS
§ 6.811(6) be, and is hereby, GRANTED;

App. 86
(13)

Defendants’ motion for summary judgment
(Doc. 64) with respect to KRS § 6.767(2) be,
and is hereby, GRANTED;

(14)

Plaintiffs’ motion for summary judgment and
injunction (Doc. 65) with respect to KRS
§ 6.767(2) be, and is hereby, DENIED;

(15)

Defendants’ motion for summary judgment
(Doc. 64) with respect to KRS § 6.811(7) be,
and is hereby, GRANTED;

(16)

Plaintiffs’ motion for summary judgment and
injunction (Doc. 65) with respect to KRS
§ 6.811(7) be, and is hereby, DENIED;

(17)

Defendants’ motion for summary judgment
(Doc. 64) with respect to KRS § 6.811(5) be,
and is hereby, DENIED;

(18)

Plaintiffs’ motion for summary judgment and
injunction (Doc. 65) with respect to KRS
§ 6.811(5) be, and is hereby, GRANTED; and

(19)

The parties shall confer and draft a
permanent injunction that comports with
this Opinion and Fed. R. Civ. P. 65, and they
shall file the proposed injunction within
twenty (20) days of entry of this Order.
This shall not constitute a waiver of any
party’s right to contest or appeal the rulings
adverse to them.

App. 87
This 6th day of June, 2017.
[SEAL]

Signed By:
William O. Bertelsman WOB
United States District Judge

App. 88

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 17-6456/6505
[Filed July 11, 2019]
________________________________
JOHN SCHICKEL, IN HIS
)
PERSONAL AND OFFICIAL
)
CAPACITIES; DAVID WATSON, )
)
Plaintiffs-Appellees/
)
Cross-Appellants,
)
)
KEN MOELLMAN, JR.,
)
)
Plaintiff-Appellee,
)
)
v.
)
)
CRAIG C. DILGER, IN HIS
)
OFFICIAL CAPACITY AS CHAIR )
AND MEMBER, KENTUCKY
)
REGISTRY ELECTION
)
FINANCE, ET AL.,
)
)
Defendants-Appellees,
)
)
GEORGE C. TROUTMAN, IN HIS )
OFFICIAL CAPACITY AS
)
CHAIRMAN AND MEMBER OF )

App. 89
THE KENTUCKY LEGISLATIVE )
ETHICS COMMISSION, ET AL., )
)
Defendants-Appellants/
)
Cross-Appellees.
)
________________________________ )
ORDER
BEFORE: MERRITT, COOK, and LARSEN,
Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the cases. The petition then
was circulated to the full court.* No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/Deborah S. Hunt
Deborah S. Hunt, Clerk

*

Judge Thapar recused himself from participation in this ruling.

App. 90

APPENDIX G
Ky. Rev. Stat. Ann. § 6.611 Definitions for code.
As used in this code, unless the context requires
otherwise:
(1)

“Adversarial proceeding” means a proceeding in
which decisions are made based upon evidence
presented as measured against established
standards, with parties having the right to
appeal the decision on the record to a court;

(2)

(a) “Anything of value” includes the following:
1.

A pecuniary item, including money, or
a bank bill or note;

2.

A promissory note, bill of exchange,
order, draft, warrant, check, or bond
given for the payment of money;

3.

A contract, agreement, promise, or
other obligation for an advance,
conveyance, forgiveness of
indebtedness, deposit, distribution,
loan, payment, gift, pledge, or transfer
of money;

4.

A stock, bond, note, or other
investment interest in an entity;

5.

A receipt given for the payment of
money or other property;

App. 91
6.

A right in action;

7.

A gift, tangible good, chattel, or an
interest in a gift, tangible good, or
chattel;

8.

A loan or forgiveness of indebtedness;

9.

A work of art, antique, or collectible;

10.

An automobile or other means of
personal transportation;

11.

Real property or an interest in real
property, including title to realty; a fee
simple or partial interest, present or
future, contingent or vested, within
realty; a leasehold interest; or other
beneficial interest in realty;

12.

A rebate or discount in the price of
anything of value unless the rebate or
discount is made in the ordinary
course of business to a member of the
public without regard to that person’s
status as a legislator;

13.

A promise or offer of employment; or

14.

Any other thing of value that is
pecuniary or compensatory in value to
a person, or the primary significance
of which is economic gain.

App. 92
(b)

“Anything of value” does not include:
1.

A campaign contribution properly
received and reported, if reportable, as
required under KRS Chapter 121;

2.

Compensation, food, beverages,
entertainment, transportation,
lodging, or other goods or services
extended to a legislator by the
legislator’s private employer or by a
person other than a legislative agent
or employer;

3.

A usual and customary commercial
loan made in the ordinary course of
business, without regard to the
recipient’s status as a legislator, and
by a person or institution authorized
by law to engage in the business of
making loans;

4.

A
certificate,
plaque,
or
commemorative token of less than one
hundred fifty dollars ($150) value;

5.

Promotional items of less than fifty
dollars ($50);

6.

Educational items;

7.

Informational items;

8.

The
cost
of attendance or
participation, and of food and
beverages consumed, at events:

App. 93
a. To which all members of the
Kentucky Senate or the Kentucky
House of Representatives, or both,
are invited;
b. To which all members of a joint
committee or task force of the
Kentucky Senate and the
Kentucky
House
of
Representatives are invited;
c. To which a caucus of legislators
approved as a caucus by the
Legislative Research Commission
is invited;
d. Sponsored or coordinated by a
state or local government entity,
including a state institution of
higher education, provided that the
cost thereof is covered by the state
or local government entity or state
institution of higher education; or
e. To which an individual legislator is
invited that are held in-state, and
for which the legislator receives
prior approval from a majority of
the Legislative Research
Commission;
9.

Gifts from a person related by blood or
marriage or a member of the
legislator’s household;

App. 94
10.

A gift that:
a. Is not used; and
b. No later than thirty (30) days after
receipt, is returned to the donor or
delivered to a charitable
organization and is not claimed as
a charitable contribution for
federal income tax purposes;

11.

The cost, paid, reimbursed, raised, or
obtained by the Legislative Research
Commission, for attendance or
participation, and for food and
beverages consumed at, and funds,
goods, and services provided for
conducting events sponsored or
coordinated by multistate or national
organizations of, or including, state
governments, state legislatures, or
state legislators if the attendance and
expenditures are approved in advance
by the Legislative Research
Commission;

12.

The cost of attendance or participation
provided by the sponsoring entity, of
lodging, and of food and beverages
consumed, at in-state events
sponsored by or in conjunction with a
civic, charitable, governmental, trade
association, or community
organization;

App. 95
13.

A gift or gifts from one member of the
General Assembly to another member
of the General Assembly;

14.

Anything for which the recipient pays
or gives full value; or

15.

Any service spontaneously extended to
a legislator in an emergency situation;

(3)

“Associated,” if used with reference to an
organization, includes an organization in
which an individual or a member of the
individual’s family is a director, officer,
fiduciary, trustee, agent, or partner, or
owns or controls, in the aggregate, an
interest of ten thousand dollars ($10,000)
or more, or an interest of five percent (5%)
or more of the outstanding equity;

(4)

“Business” means any corporation,
partnership, sole proprietorship, firm,
enterprise, franchise, association,
organization, self-employed individual,
holding company, joint stock company,
receivership, trust, professional service
corporation, or any legal entity through
which business is conducted for profit;

(5)

“Business
following:
(a)

associate”

includes

A private employer;

the

App. 96
(b)

A general or limited partnership,
or a general or limited partner
within the partnership;

(c)

A corporation that is family-owned
or in which all shares of stock are
closely held, and the shareholders,
owners, and officers of such a
corporation;

(d)

A corporation in which the
legislator or other person subject to
this code has an investment
interest, owns, or has a beneficial
interest in shares of stock which
constitute more than:
1. Five percent (5%) of the value
of the corporation; or
2. Ten thousand dollars ($10,000)
at fair market value;

(e)

(6)

A
corporation,
business
association, or other business
entity in which the legislator or
other person subject to this code
serves as an agent or a
compensated representative;

“Candidate” means an individual who
seeks nomination or election to the
General Assembly. An individual is a
candidate when the individual:

App. 97
(a)

Files a notification and declaration
for nomination for office with the
Secretary of State; or

(b)

Is nominated for office by his or
her party under KRS 118.105,
118.115, 118.325, or 118.760;

(7)

“Charitable organization” means an
organization described in 26 U.S.C. Sec.
170(c) as it currently exists or as it may
be amended;

(8)

“Child” means the unemancipated minor
daughter, son, stepdaughter, or stepson;

(9)

“Commission” means the Kentucky
Legislative Ethics Commission;

(10)

(a)

“Compensation” means:
1. An advance, salary, conveyance,
forgiveness of indebtedness,
deposit, distribution, loan,
payment, gift, pledge, or
transfer of money; or
2. A contract, agreement, promise,
or other obligation for an
advance,
conveyance,
forgiveness of indebtedness,
deposit, distribution, loan,
payment, gift, pledge, or
transfer of money for services
rendered or to be rendered.

App. 98
(b)

“Compensation” does not include
reimbursement of expenses if:
1. The reimbursement is equal to,
or less than, the amount paid
for the expenses;
2. Expense records are itemized;
and
3. No portion of the reimbursed
expense is used to give
anything of value to a
legislator, candidate, or the
spouse of a legislator or
candidate;

(11)

“Economic interest” means an interest
distinct from that of the general public in
a state purchase, sale, lease, contract,
option, or other transaction or
arrangement involving property or
services in which a legislator may gain an
economic benefit of fifty dollars ($50) or
more;

(12)

“Employer” means any person who
engages a legislative agent and in the
case of a business other than a sole
proprietorship or self-employed
individual, it means the business entity,
and not an individual officer, director, or
employee thereof, except when an officer,
director, or employee makes an
expenditure for which he or she is
reimbursed by the business entity;

App. 99
(13)

“Engage” means to make any
arrangement, and “engagement” means
any arrangement, by which an individual
is employed or retained for compensation
to act for or on behalf of an employer to
lobby;

(14)

“Ethical misconduct” means any violation
of the Kentucky Code of Legislative
Ethics;

(15)

(a)

“Expenditure” means any of the
following that is made to, at the
request of, for the benefit of, or on
behalf of any member of the
General Assembly, the Governor,
the secretary of a cabinet listed in
KRS 12.250, or any member of the
staff of any of those officials:
1. A payment, distribution, loan,
advance,
deposit,
reimbursement, or gift of
money, real estate, or anything
of value, including, but not
limited to, food and beverages,
entertainment, lodging,
transportation, or honoraria;
2. A contract, promise,
agreement, to make
expenditure; or

or
an

3. The purchase, sale, or gift of
services or any other thing of
value.

App. 100
(b)

(16)

“Expenditure” does not include a
contribution, gift, or grant to a
foundation or other charitable
organization that is exempt from
federal income taxation under
Section 501(c)(3) of the Internal
Revenue Code. “Expenditure” does
not include the purchase, sale, or
gift of services or any other thing of
value that is available to the
general public on the same terms
as it is available to the persons
listed in this subsection;

“Family member” means a person:
(a)

Who is the spouse, parent, sibling,
child, mother-in-law, father-in-law,
son-in-law, daughter-in-law,
grandparent, or grandchild of an
individual; or

(b)

Who is a member of the
individual’s household, and is
dependent upon the individual;

(17)

“Filer” means an individual who is
required to file a statement of financial
interests pursuant to KRS 6.781;

(18)

(a)

“Financial transaction” means a
transaction or activity that is
conducted or undertaken for profit
and arises from the joint
ownership, ownership, or part
ownership in common of any real

App. 101
or personal property or any
commercial or business enterprise
of whatever form or nature
between the following:
1. A legislative agent, his or
employer, or a member of
immediate family of
legislative agent or his or
employer; and

her
the
the
her

2. Any member of the General
Assembly, the Governor, the
secretary of a cabinet listed in
KRS 12.250, or any member of
the staff of any of the officials
listed in this subparagraph.
(b)

“Financial transaction” does not
include any transaction or activity:
1. Described in paragraph (a) of
this subsection if it is available
to the general public on the
same or similar terms and
conditions; or
2. Made or let after public notice
and competitive bidding or
contracts that are available on
similar terms to other members
of the general public.

(19)

“Former legislator” means a person who
previously held a position as a legislator
and who no longer holds that position;

App. 102
(20)

“Immediate
family”
means
an
unemancipated child residing in an
individual’s household, a spouse of an
individual, or a person claimed by the
individual as a dependent for tax
purposes;

(21)

“In-state” means within the borders of
Kentucky or outside Kentucky in a county
that is contiguous with the border of
Kentucky;

(22)

“Legislation” means bills, resolutions,
amendments,
nominations,
administrative regulations, and any other
matter pending before the General
Assembly or any of its interim or
statutory committees, or the executive
approval or veto of any bill acted upon by
the General Assembly;

(23)

(a)

“Legislative agent” means any
individual who is engaged:
1. during at least a portion of his
or her time to lobby as one (1) of
his
or
her
official
responsibilities; or
2. In lobbying activities as a
legislative liaison of an
association, coalition, or public
interest entity formed for the
purpose of promoting or
otherwise influencing
legislation.

App. 103
(b)

“Legislative
include:

agent”

does

not

1. Any person who limits his or
her lobbying activities to
appearing before public
m eet i ngs o f l e g i sla t i v e
committees, subcommittees, or
task forces, or public hearings
or meetings of public agencies;
2. A private citizen who receives
no compensation for lobbying
and who expresses a personal
opinion; or
3. A public servant acting in his or
her fiduciary capacity as a
representative of his or her
agency, college, university, or
city, county, urban-county,
consolidated local government,
unified local government, or
charter county government,
except persons engaged by a de
jure municipal corporation,
such as the Kentucky Lottery
Corporation or the Kentucky
Housing Corporation,
institutions of higher education,
or local governments, whose
primary responsibility during
sessions of the General
Assembly is to lobby;

App. 104
(24)

“Legislative interest” means a substantial
economic interest, distinct from that of
the general public, in one (1) or more
legislative matters;

(25)

“Legislative matter” means any bill,
resolution, nomination, or other issue or
proposal pending before the General
Assembly or any interim committee,
committee, subcommittee, task force, or
commission of the General Assembly;

(26)

“Legislator” means a member or memberelect of the General Assembly;

(27)

(a)

“Lobby” means to promote,
advocate, or oppose the passage,
modification, defeat, or executive
approval or veto of any legislation
by direct communication with any
member of the General Assembly,
the Governor, the secretary of any
cabinet listed in KRS 12.250, or
any member of the staff of any of
the officials listed in this
paragraph.

(b)

“Lobbying” does not include:
1. Appearances before public
meetings of the committees,
subcommittees, task forces, and
interim committees of the
General Assembly;

App. 105
2. News, editorial, and advertising
statements published in
newspapers, journals, or
magazines, or broadcast over
radio or television;
3. The gathering and furnishing of
information and news by bona
fide reporters, correspondents,
or news bureaus to news media
described in paragraph (b)2. of
this subsection;
4. Publications primarily designed
for, and distributed to,
m e m b e r s of b ona fi de
associations or charitable or
fraternal
nonprofit
corporations;
5. Professional services in drafting
bills or resolutions, preparing
arguments on these bills or
resolutions, or in advising
clients and rendering opinions
as to the construction and the
effect of proposed or pending
legislation, if the services are
not otherwise connected with
lobbying; or
6. The action of any person not
engaged by an employer who
has a direct interest in
legislation, if the person, acting

App. 106
under Section 1 of the Kentucky
Constitution, assembles
together with other persons for
their common good, petitions
any official listed in this
subsection for the redress of
grievances, or other proper
purposes;
(28)

“Person”
means an individual,
proprietorship, firm, partnership, joint
venture, joint stock company, syndicate,
business, trust, estate, company,
corporation, association, club, committee,
organization, or group of persons acting in
concert;

(29)

“Public servant” means an elected or
appointed officer or employee of a federal
or state agency; state institution of higher
education; or a city, county, urban-county,
or charter county government;

(30)

“State agency” means any department,
office, commission, board, or authority
within the executive department, and
includes state-supported universities and
colleges but does not include local boards
of education; and

(31)

“Through others” means a scheme,
artifice, or mechanism, the sole purpose of
which is to accomplish by indirect means,
using third parties, results which would
be unlawful under this code if

App. 107
accomplished directly between a legislator
or candidate and another person or entity.
Effective: July 15, 2014
History: Amended 2014 Ky. Acts ch. 75, sec. 1,
effective July 15, 2014. -- Amended 2005 Ky.
Acts ch. 105, sec. 13, effective March 16, 2005. -Amended 1996 Ky. Acts ch. 211, sec. 1, effective
July 15, 1996. -- Amended 1994 Ky. Acts ch. 479,
sec. 2, effective July 15, 1994. -- Amended 1993
(1st Extra. Sess.) Ky. Acts ch. 4, sec. 4, effective
September 16, 1993. -- Created 1976 Ky. Acts ch.
262, sec. 1.
Formerly codified as KRS 6.750.
Ky. Rev. Stat. Ann. § 6.751 Prohibition against
acceptance of additional compensation or gifts
for performance of legislative duties -- Penalties.
(1)

A legislator shall not knowingly accept
compensation, other than that provided by law
for members of the General Assembly, for
performance of his legislative duties. No person,
other than state officials or employees
performing their duties in making payments to
members of the General Assembly as provided
by law, may pay or offer to pay any person any
compensation for performance of his legislative
duties. Violation of this subsection is a Class A
misdemeanor.

(2)

A legislator or his spouse shall not solicit,
accept, or agree to accept anything of value from

App. 108
a legislative agent or an employer. Violation of
this subsection is a Class B misdemeanor.
Effective: September 16, 1993
History: Amended 1993 (1st Extra. Sess.) Ky.
Acts ch. 4, sec. 12, effective September 16, 1993.
-- Created 1976 Ky. Acts ch. 262, sec. 9.
Formerly codified as KRS 6.790.
Ky. Rev. Stat. Ann. § 6.767 Prohibitions against
acceptance of campaign contributions from
legislative agents at any time and from
employers of legislative agents or permanent
committees during regular sessions -- Penalties -Defenses.
(1)

For purposes of this section, “accept” means the
date a contribution is postmarked, if mailed, or
the date of the hand delivery, if the contribution
is hand-delivered.

(2)

A member of the General Assembly, candidate
for the General Assembly, or his or her
campaign committee shall not accept a campaign
contribution from a legislative agent. Violation
of this provision is ethical misconduct.

(3)

A member of the General Assembly, candidate
for the General Assembly, or his or her
campaign committee shall not, during a regular
session of the General Assembly, accept a
campaign contribution from an employer of a
legislative agent, or from a permanent
committee as defined in KRS 121.015. This

App. 109
subsection shall not apply to candidates for the
General Assembly in a special election held
during a regular session of the General
Assembly. Violation of this provision is ethical
misconduct.
(4)

It shall be a complete defense under this section
if the legislator, candidate, or his or her
campaign committee receives a campaign
contribution from a legislative agent or, during
a regular session, from an employer or from a
permanent committee, which fact is unknown to
the legislator, candidate, or committee at the
time of receipt, if the legislator, candidate, or his
or her campaign committee either returns the
contribution within thirty (30) days of receipt,
and within fourteen (14) additional days makes
that fact, together with the name of the
contributor, amount of the contribution, and the
date of return or payment known, in writing to
the commission. It shall also be a defense if a
legislator, candidate, or his or her campaign
committee receives a campaign contribution
from a legislative agent whose name does not yet
appear on the list of legislative agents and their
employers furnished to the Legislative Research
Commission if the legislator, candidate, or his or
her campaign committee returns the campaign
contribution within thirty (30) days of the
Legislative Research Commission’s receipt of the
list bearing the name of the legislative agent
and all employers and makes the written
disclosure to the commission required in this
subsection. The time periods shall be tolled upon

App. 110
the filing with the commission of a request for
an advisory opinion regarding the campaign
contribution. Upon the issuance of the opinion or
decision not to render an opinion, the time
period shall resume.
Effective: June 29, 2017
History: Amended 2017 Ky. Acts ch. 122, sec. 7,
effective June 29, 2017. -- Amended 2014 Ky.
Acts ch. 75, sec. 5, effective July 15, 2014. -Created 1993 (1st Extra. Sess.) Ky. Acts ch. 4,
sec. 17, effective September 16, 1993.
Ky. Rev. Stat. Ann. § 6.811 Prohibitions against
certain conduct by legislative agents and their
employers -- Penalties.
(1)

A legislative agent or employer shall not
knowingly fail to register, as required under
KRS 6.807.

(2)

A legislative agent or employer shall not
knowingly fail to keep a receipt or maintain a
record which KRS 6.821 requires the person to
keep or maintain.

(3)

A person shall not knowingly fail to file a
statement that KRS 6.807, 6.821, or 6.824
requires the person to file.

(4)

A legislative agent or employer shall not
knowingly offer, give, or agree to give anything
of value to a legislator, a candidate, or the
spouse or child of a legislator or candidate.

App. 111
(5)

A legislative agent shall not serve as a campaign
treasurer, and shall not directly solicit, control,
or deliver a campaign contribution, for a
candidate or legislator.

(6)

A legislative agent shall not make a campaign
contribution to a legislator, a candidate, or his or
her campaign committee.

(7)

During a regular session of the General
Assembly, an employer of a legislative agent
shall not make a campaign contribution to a
legislator, candidate, campaign committee for a
legislator or candidate, or caucus campaign
committee. This subsection shall not apply to
candidates for the General Assembly in a special
election held during a regular session of the
General Assembly.

(8)

An employer shall not knowingly employ,
appoint, or retain a serving legislator or former
legislator as a legislative agent until at least two
(2) years have elapsed from the date on which he
or she vacated his or her office.

(9)

No person shall engage any person to lobby in
exchange for compensation that is contingent in
any way upon the passage, modification, or
defeat of any legislation. No person shall accept
any engagement to lobby in exchange for
compensation that is contingent in any way
upon the passage, modification, or defeat of any
legislation. Violation of this provision is a Class
D felony.

App. 112
(10)

A legislative agent or other lobbyist shall not go
upon the floor of either house of the General
Assembly while the house is in session, except
upon invitation of that house. Violation of this
provision is a Class B misdemeanor.

(11)

If any legislative agent or employer violates any
provision in subsections (4) to (8) of this section,
he or she shall for the first violation be guilty of
ethical misconduct. For the second and each
subsequent violation, he or she shall be guilty of
a Class D felony.
Effective: July 15, 2014
History: Amended 2014 Ky. Acts ch. 75, sec. 6,
effective July 15, 2014. -- Created 1993 (1st
Extra. Sess.) Ky. Acts ch. 4, sec. 26, effective
September 16, 1993.

App. 113
U.S. Const. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress
of grievances.
U.S. Const. amend. XIV, § 1
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.

